<html>
<title> - SPRING VALLEY</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
    SPRING VALLEY--TOXIC WASTE CONTAMINATION IN THE NATION'S CAPITAL
=======================================================================



                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 27, 2001
                               __________

                           Serial No. 107-42
                               __________

       Printed for the use of the Committee on Government Reform









  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                        U.S. GOVERNMENT PRINTING OFFICE
77-354                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


















                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Tennessee                (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

         Subcommittee on the District of Columbia <plus-minus>

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
JOE SCARBOROUGH, Florida             DIANE E. WATSON, California
                                     ------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                Howard Dennis, Professional Staff Member
                          Matthew Batt, Clerk
                      Jon Bouker, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2001....................................     1
Statement of:
    Ladner, Benjamin, president, American University; Lewis D. 
      Walker, former Deputy Assistant Secretary of the Army, 
      Environment, Safety, and Occupational Health; Francis E. 
      Reardon, Auditor General of the Army, U.S. Army Audit 
      Agency, accompanied by Stephen Kiefer, Deputy Auditor 
      General, U.S. Army Audit Agency; Raymond J. Fatz, Deputy 
      Assistant Secretary, Army, Environment, Safety and 
      Occupational Health, accompanied by Colonel Charles J. 
      Fiala, Army Corps of Engineers.............................   130
    Walks, Ivan C.A., M.D., chief health officer of the District 
      of Columbia, accompanied by Theodore J. Gordon, chief 
      operating officer, D.C. Department of Health; and Dr. 
      Richard D. Albright, JD, MS, environmental specialist/
      ordnance & chemical weapons expert, D.C. Department of 
      Health; Dr. Bailus Walker, Jr., chairman, District of 
      Columbia Mayor's Spring Valley Scientific Advisory Panel; 
      Sarah Stowell Shapley, co-chair, Spring Valley Restoration 
      Advisory Board; William C. Harrop, president, Spring 
      Valley-Wesley Heights Citizens Association; and Edward J. 
      Miller, Jr., president, W.C. and A.N. Miller Development 
      Co.........................................................    10
    Williams, Rear Admiral Robert, Director, Division of Health 
      Assessment and Consultation, Agency for Toxic Substances 
      and Disease Registry; and Thomas C. Voltaggio, Acting 
      Regional Administrator, Environmental Protection Agency 
      Region III.................................................   109
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................   306
    Fatz, Raymond J., Deputy Assistant Secretary, Army, 
      Environment, Safety and Occupational Health, prepared 
      statement of...............................................   251
    Fiala, Colonel Charles J., Army Corps of Engineers:
        Letter dated August 22, 2001.............................   298
        Prepared statement of....................................   260
    Harrop, William C., president, Spring Valley-Wesley Heights 
      Citizens Association, prepared statement of................    34
    Ladner, Benjamin, president, American University, prepared 
      statement of...............................................   133
    Miller, Edward J., Jr., president, W.C. and A.N. Miller 
      Development Co., prepared statement of.....................    38
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     4
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia:
        List of addresses........................................   302
        Prepared statement of....................................     8
    Reardon, Francis E., Auditor General of the Army, U.S. Army 
      Audit Agency, prepared statement of........................   230
    Shapley, Sarah Stowell, co-chair, Spring Valley Restoration 
      Advisory Board, prepared statement of......................    29
    Voltaggio, Thomas C., Acting Regional Administrator, 
      Environmental Protection Agency Region III, prepared 
      statement of...............................................   118
    Walker, Dr. Bailus, Jr., chairman, District of Columbia 
      Mayor's Spring Valley Scientific Advisory Panel, prepared 
      statement of...............................................    12
    Walker, Lewis D., former Deputy Assistant Secretary of the 
      Army, Environment, Safety, and Occupational Health, 
      prepared statement of......................................   228
    Walks, Ivan C.A., M.D., chief health officer of the District 
      of Columbia, prepared statement of.........................    78
    Williams, Rear Admiral Robert, Director, Division of Health 
      Assessment and Consultation, Agency for Toxic Substances 
      and Disease Registry, prepared statement of................   112













    SPRING VALLEY--TOXIC WASTE CONTAMINATION IN THE NATION'S CAPITAL

                              ----------                              


                         FRIDAY, JULY 27, 2001

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairwoman of the subcommittee) presiding.
    Present: Representatives Morella, Platts, Norton, and 
Watson.
    Staff present: Russell Smith, staff director; Heea 
Vazirani-Fales, deputy staff director; Robert White, 
communications director; Matthew Batt, legislative assistant; 
Shalley Kim, staff assistant; Howard Dennis, professional staff 
for representative davis; Jon Bouker, minority counsel; and 
Jean Gosa, minority assistant clerk.
    Mrs. Morella. Good morning. I'm going to call to order the 
Subcommittee on the District of Columbia for its hearing on 
toxic waste contamination in the Nation's Capital.
    It is a pleasure to welcome you all, witnesses and 
interested parties, to the sixth hearing of the Subcommittee on 
the District of Columbia in this 107th Congress.
    I want to recognize members of the subcommittee. We have, 
of course, the ranking member, who has been so valuable, the 
foundation of this subcommittee, Congresswoman Eleanor Holmes 
Norton. Later we expect that we will have Mr. Platts of 
Pennsylvania, who will be joining us, and probably Mr. Tom 
Davis of Virginia. And we have a new member from California, 
Congresswoman Diane Watson, who replaced Julian Dixon, who was 
somebody who served very valiantly on the District of Columbia 
Subcommittee.
    I want to make special mention of our witnesses. They're 
here because of their expertise and knowledge regarding the 
identification or remediation of contaminated sites in Spring 
Valley, or they are here because they have been affected in 
some way by the burial of those dangerous chemical weapons. 
There are many others who fall into the latter category. I 
regret that we can't hear from all of them. If, however, there 
are some who want to submit testimony, the record will be open 
for 5 legislative days.
    I want to remind witnesses that the rules of the Committee 
on Government Reform require that all witnesses be administered 
an oath prior to testifying, and I want to encourage our 
opening statements, because of the number of people that we 
have testifying in this important hearing, ask them if they 
would kindly confine their statements to 5 minutes or so and 
that their entire statements will be placed into the record. 
That will give us more opportunity for dialog with the 
witnesses.
    The entire prepared statements will be in the record. We'll 
hold the record, again, for 5 legislative days.
    Now I'd like to make some opening comments. In 1918, 
shortly after the United States entered World War I, the U.S. 
Army accomplished a chemical weapons testing station in upper 
Northwest D.C. In a neighborhood now known as Spring Valley. 
The Army leased the land from the American University and nine 
other property owners.
    The American University experimental station soon became 
the world's second largest chemical weapons facility, behind 
only a similar outpost in Aberdeen, MD. At its peak, 1,900 
military and civilian employees worked there, and untold 
numbers of experimental chemical weapons were exploded over its 
hundreds of acres.
    More than 80 years later, we're still struggling to 
determine the precise extent of the environmental and possibly 
human damage caused by the Army at its American University 
facility. Despite several cleanup efforts and more than one 
declaration that the area was safe, the Army Corps of Engineers 
is still locating buried munitions and discovering worrisome 
levels of arsenic and other chemicals in the soil. Residents 
with serious illnesses are left wondering if prolonged exposure 
to these chemicals is to blame. Parents are worried their young 
children might be the next ones to turn up sick.
    The background of this case, including some aspects that 
are just now becoming known publicly, is long and complicated, 
but the important points are this: The U.S. Army twice examined 
the Spring Valley area, once in 1986 at the request of American 
University, and once beginning in 1993 after munitions were 
found by a construction crew. The first time, it decided 
against substantial evidence suggesting otherwise that archival 
materials did not support further investigation. It was 
seemingly joined in this conclusion by American University.
    The second time the Army Corps of Engineers spent 2 years 
identifying and removing munitions and conducting soil samples. 
It ultimately declared the area safe, only to be proved wrong 
after the D.C. Government challenged its findings. The result, 
of course, is that for the past 2 years, the Corps has been 
back at Spring Valley extracting chemical weapons and 
performing more soil tests.
    This shouldn't be taken to suggest that the U.S. Army is 
the only party at fault. While we are still learning all the 
facts, it's apparent that at best, the Army, American 
University, the Environmental Protection Agency and the 
District government and perhaps others may have failed to take 
aggressive action to learn the true nature of buried munitions 
at Spring Valley. At worst, there was a conspiracy of silence 
that jeopardized public health, threatened the houses of 
hundreds of families and eroded people's trust in government.
    This situation raises many troubling questions, and among 
them, do we have a feasible plan for righting the wrongs at 
Spring Valley? Is it proper for the Army Corps to remain in 
charge of this cleanup operation, or is some kind of 
independent oversight warranted? And are there other Spring 
Valleys throughout--lurking beneath the surface of our Nation's 
Capital or some other unsuspecting community?
    Today's hearing will focus on many different aspects of the 
Spring Valley situation, but our goal is simple. We want 
answers, accountability and action. We want answers from the 
Army Corps of Engineers, from the Environmental Protection 
Agency, from American University, from anyone who knew or 
should have known of the dangerous chemicals that lay just 
below the Earth's surface.
    Why did it take so long for this hazard to come to light? 
How could it have been prevented or the risk to human health at 
least mitigated? We demand accountability.
    I find it difficult to believe that once the AU testing 
station closed in or about 1921, no one in a position of power 
gave it a second thought, and after a few years, no one, we've 
been told, even remembered that chemical weapons testing had 
been conducted there. This is quite amazing, given that 
American University later hosted military operations during 
World War II, and according to documents that my staff 
collected, the university discovered an unexploded bomb on its 
campus back in 1953 or 1954 during construction of its TV 
tower. Despite that, it's at least evident that the Army, the 
American University, the EPA and others had a good idea of the 
magnitude of the contamination no later than 1986, following 
the university's research of the public archives, and yet 
nothing was done.
    These are the answers we seek.
    Finally, we require action. The Army Corps, working with 
the city, the residents and other parties, has pledged to test 
every property in Spring Valley, all 1,200 of them, for arsenic 
and other chemicals and then followup with necessary 
remediation. This subcommittee is very interested to hear how 
this process is progressing; and from the preliminary 
information that we have, however, I must say I'm not happy 
with the pace of this testing. It needed to be done yesterday.
    I want to conclude with a question posed by a Spring Valley 
resident named Ed Stephens: ``When will we ever be sure this 
place is totally clear of munitions?'' Unfortunately, as of 
today, July 27, 2001, the U.S. Government does not have an 
answer for him. It is especially unfortunate, because Mr. 
Stephens asked this question, according to a Washington Post 
article, on January 6, 1993, 1 day after he and 24 other 
families were forced to evacuate their homes because munitions 
were found nearby. And after all this time, the people of 
Spring Valley deserve an answer.
    I shall now recognize the distinguished ranking member of 
the subcommittee, Congresswoman Eleanor Holmes Norton, for her 
opening statement.
    [The prepared statement of Hon. Constance A. Morella 
follows:]
[GRAPHIC] [TIFF OMITTED] T7354.202

[GRAPHIC] [TIFF OMITTED] T7354.203

    Mrs. Norton. Thank you very much, Madam Chair. I appreciate 
that our Chair, Connie Morella, has been willing to schedule 
this hearing before the August recess, and her willingness to 
call further hearings on toxic contamination in our Spring 
Valley community in the future, as appropriate.
    When I listed Spring Valley in a letter containing a 
priority list for hearings at the beginning of the session, I 
believe that the matter ranked high in the need for oversight 
to get greater focus on the health effects on residents and to 
assure a more rapid cleanup so that residents could resume 
normal lives in their beautiful, tranquil community.
    Recently, however, the plot has thickened. An investigation 
by the Washington Post revealed that the Army and/or 
Environmental Protection Agency and perhaps others may have 
suppressed information or, worse, analysis and audits 
concerning toxic waste may have failed to investigate evidence 
of risk to residents from toxic residue that they knew of and 
may have missed the presence of contaminants because of 
incompetence in at least some of the soil testing that was 
done.
    Understanding who knew what and when, of course, is an 
indispensable component of our investigation. However, the most 
important contribution this subcommittee can make at this time 
is to identify and eliminate health risks to the community and 
to ensure that the remediation being undertaken now by the Army 
will remove all remaining toxins from Spring Valley rapidly and 
professionally.
    Part of the problem in Spring Valley has been that the 
agencies involved have been investigating and monitoring 
themselves and have been accountable to no one else. It is our 
obligation to investigate these allegations fairly and openly. 
However, the ad hoc way in which the facts have tumbled out, I 
believe, warrants an even deeper investigation than our 
hearings can provide.
    In addition to our own subcommittee work, I'm asking our 
Chair, Mrs. Morella, to join me in requesting an investigation 
by the General Accounting Office of exactly what occurred in 
Spring Valley and other D.C. neighborhoods--who was 
responsible, what levels of toxicity remain, what would 
constitute adequate remediation, what the health risks are and 
to whom, how the health risks may be eliminated permanently, 
and what violations of law may be raised.
    I have gone into the Spring Valley community on several 
occasions and have always been assured by the Army Corps of 
Engineers that the matter was close to resolution.
    The continuing uncertainty surrounding the entire Spring 
Valley controversy has been nothing short of cruel. Some 
residents do not know if illnesses they and their families have 
acquired are the result of the presence of toxins. Other 
residents fear that they or their children will become ill. The 
very least the government must do now is to eliminate as much 
uncertainty concerning health risks as possible, and in 
appropriate cases, compensate individual victims.
    The community at large is owed a clean bill of health that 
no one can give at this time, nor am I sure that other 
neighborhoods in the district are free of toxic munitions and 
chemicals, particularly given the way we discovered these 
toxins, by accident, by excavation when people were building 
homes. The Congress denied District residents their own 
municipal government for 100 years until 1974. If private 
parties could be persuaded to allow land to be used for weapons 
testing, there is no telling what might have occurred in 
neighborhoods near Federal land when the District of Columbia 
was little more than a Federal fiefdom.
    We need to know if other neighborhoods are contaminated 
now. Spring Valley is only one of thousands of similar sites 
across the Nation. The Spring Valley experience has led me to 
become an original cosponsor of the Ordnance and Explosive Risk 
Management Act, which requires the Department of Defense to 
establish a single point of contact for policy and budgeting 
issues related to former military sites, creates an inventory 
of explosive risk sites, sets up a separate account for removal 
and cleanup of munitions, requires enhanced security at 
military sites and public awareness of the dangers at those 
sites, and creates an independent oversight panel.
    For now, the subcommittee must give the most concentrated 
focus and attention to Spring Valley and its residents for the 
assistance we can render them and for what their experience can 
teach us for the rest of the country.
    It would be wrong to rewrite history based on today's 
science. It is equally wrong to learn by accident of toxic 
wastes near where people live or work. Today's science must be 
brought to bear to make up for mistakes the government may not 
have known it was making after World War I.
    Today's mistakes in dealing with these wastes make the 
government culpable, however. Therefore, let us work together 
to accelerate remediation through a full and competent cleanup 
that includes independent verification that both toxic wastes 
and health risks have been eliminated.
    I welcome all of today's witnesses and I look forward to 
their testimony.
    Thank you, Madam Chair.
    Mrs. Morella. Thank you very much, Congresswoman Norton.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] T7354.001

[GRAPHIC] [TIFF OMITTED] T7354.002

    Mrs. Morella. I'm now going to ask the first panel to come 
forward. I note that Dr. Walks has not joined us yet, nor has 
Mr. Gordon nor Dr. Albright. So Dr. Bailus Walker, Jr., Sarah 
Stowell Shapley, William Harrop, and Edward J. Miller, Jr.
    Before you get comfortable, I'm going to ask you if you 
would stand so I can administer the oath to you. If you would 
raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. The record will note an affirmative response.
    Welcome. Thank you for coming. Again, as I had stated 
initially, if you would be kind enough to confine your 
testimony to not exceed 5 minutes, knowing that it is--in its 
entirety, your testimony will be in the record, because we want 
to have an opportunity to ask some questions and because we 
have two other panels.
    So if you don't mind starting off earlier than you thought 
you would, Dr. Bailus Walker, chairman of the District of 
Columbia Mayor's Spring Valley Scientific Advisory Panel, we're 
delighted to recognize you.

 STATEMENTS OF IVAN C.A. WALKS, M.D., CHIEF HEALTH OFFICER OF 
 THE DISTRICT OF COLUMBIA, ACCOMPANIED BY THEODORE J. GORDON, 
  CHIEF OPERATING OFFICER, D.C. DEPARTMENT OF HEALTH; AND DR. 
RICHARD D. ALBRIGHT, JD, MS, ENVIRONMENTAL SPECIALIST/ORDNANCE 
   & CHEMICAL WEAPONS EXPERT, D.C. DEPARTMENT OF HEALTH; DR. 
  BAILUS WALKER, JR., CHAIRMAN, DISTRICT OF COLUMBIA MAYOR'S 
SPRING VALLEY SCIENTIFIC ADVISORY PANEL; SARAH STOWELL SHAPLEY, 
CO-CHAIR, SPRING VALLEY RESTORATION ADVISORY BOARD; WILLIAM C. 
   HARROP, PRESIDENT, SPRING VALLEY-WESLEY HEIGHTS CITIZENS 
  ASSOCIATION; AND EDWARD J. MILLER, JR., PRESIDENT, W.C. AND 
                  A.N. MILLER DEVELOPMENT CO.

    Mr. Bailus Walker. Thank you, Chairwoman Morella and 
Ranking Member Norton and distinguished Members. I'm Bailus 
Walker, chairman of the District of Columbia Mayor's Spring 
Valley Scientific Advisory Panel, and I am professor of 
environmental occupation medicine at Howard University College 
of Medicine, and I appreciate the invitation to participate in 
the subcommittee's effort to determine a range of factors 
regarding chemical contamination in the Spring Valley 
community.
    My comments will focus on findings, recommendations of the 
scientific advisory panel, which was appointed by the Mayor 
earlier this year in response to environmental and health 
concerns of the Spring Valley residents. And the panel was 
chosen for their technical expertise in toxicology and 
epidemiology, environmental occupation health sciences and soil 
analysis; and the panel included two residents from the Spring 
Valley community who are knowledgeable of the community. The 
Mayor charged the panel to review the processes and procedures 
under way regarding the identified and measured contaminants in 
the Spring Valley neighborhood, and the Mayor also charged us 
to assure that the best available scientific knowledge is 
applied in seeking answers to the residents' questions.
    Madam Chairman, the full text of my report is attached and 
I ask that it be inserted into the record.
    Mrs. Morella. Without objection.
    Mr. Bailus Walker. And I will simply summarize our----
    Mrs. Morella. Without objection, so ordered.
    Mr. Bailus Walker. Thank you
    Which is a reflection of the panel's concern.
    First of all, I think the panel agreed with the approach 
that the Corps of Engineers was using to evaluate the soil. 
That plan was presented to the advisory panel in considerable 
detail, and it was our view, based on the expertise of our soil 
scientists, that this was a sound approach. The panel 
recommended also that the District of Columbia develop a very 
comprehensive plan; and I think earlier the District was just 
responding to complaints and concerns, and there was no clear-
cut plan. And so our panel recommended that the District 
develop a comprehensive plan which would really enhance efforts 
to try to get an answer to some of the concerns raised by the 
community.
    We also recommended that the District government use the 
soil sampling results from the Corps of Engineers as the basis 
for determining what additional human testing should be done. 
In other words, in areas or in neighborhoods on properties 
where there were high concentrations of arsenic or whatever 
contaminant, that would signal to the District of Columbia that 
should be testing about monitoring of the individuals who live 
on those hot spots.
    We also recommended that the District of Columbia do 
another analysis of cancer trends. The presentation that was 
made to a panel lacked what we thought was a good comparison 
group. The comparison group was chosen from the census tracts 
next to Spring Valley, and we suggested that from a sound 
epidemiological standpoint, the control group should be outside 
of that area and under the same socioeconomic profile as the 
Spring Valley community.
    We also recommended that the three agencies, District of 
Columbia, Corps of Engineers and EPA, really develop a plan for 
communicating the results of the environmental analysis as well 
as the health analysis, a plan so that the public--the 
community residents fully understood the scientific issues, as 
well as the data that was being collected. In other words, a 
kind of risk communication process should be developed.
    Madam Chairman, those are the principal recommendations of 
our committee, and as I indicated, my full statement is 
attached. I would conclude that there is a need for a full 
health risk assessment of the potential exposure contaminants--
of the residents to the contaminants in that community. We felt 
that there was a need for more data before we could draw any 
sound conclusion with respect to health and environmental 
issues.
    That concludes my testimony, Madam Chairman. I invite any 
questions that you may have.
    Mrs. Morella. Thank you, Dr. Walker. We will address 
questions to you at the end of the first panel.
    [The prepared statement of Mr. Walker follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.003
    
    [GRAPHIC] [TIFF OMITTED] T7354.004
    
    [GRAPHIC] [TIFF OMITTED] T7354.005
    
    [GRAPHIC] [TIFF OMITTED] T7354.006
    
    [GRAPHIC] [TIFF OMITTED] T7354.007
    
    [GRAPHIC] [TIFF OMITTED] T7354.008
    
    [GRAPHIC] [TIFF OMITTED] T7354.009
    
    [GRAPHIC] [TIFF OMITTED] T7354.010
    
    [GRAPHIC] [TIFF OMITTED] T7354.011
    
    [GRAPHIC] [TIFF OMITTED] T7354.012
    
    [GRAPHIC] [TIFF OMITTED] T7354.013
    
    [GRAPHIC] [TIFF OMITTED] T7354.014
    
    [GRAPHIC] [TIFF OMITTED] T7354.015
    
    [GRAPHIC] [TIFF OMITTED] T7354.016
    
    Mrs. Morella. I'm pleased to recognize Ms. Shapley.
    Ms. Shapley. Good morning. May I say in opening, thank you, 
Chairman Morella and our own Delegate Norton, for holding this 
hearing. I want to acknowledge that Mrs. Norton has visited 
Spring Valley, and among her innumerable D.C. visits, that is 
certainly appreciated. And her specifics in the opening 
statement, I think fall very much in line with some of the 
points that I am making. So I welcome that in advance.
    Let me just say, I am Sarah Stowell Shapley, elected 
community co-chair of the Spring Valley Restoration Advisory 
Board for the Army Corps of Engineers cleanup of war-related 
contamination of our neighborhood. This board is a mechanism 
authorized by statute for the Defense Department's Formerly 
Used Defense Sites [FUDS], and has a membership comprising the 
various stakeholders in the cleanup project.
    Besides institutional members representing American 
University, the local property developer of Spring Valley, the 
W.C. & A.N. Miller Co., the local elementary public school, 
Horace Mann, and the D.C. Department of Health in region 3 of 
the U.S. Environmental Protection Agency, besides these, there 
are 14 community members who were all residents in the area. I 
was elected from this group. The Corps project manager, Major 
Michael Peloquin, is the other cochair.
    I should also say that in my non-volunteer life, I am 
indeed an employee of the U.S. Environmental Protection Agency 
here in Washington.
    I want to emphasize, this is a very recently constituted 
board. July 10th was our first meeting after having elected a 
community co-chair. The statutory rules dictate that we speak 
as individuals, and so I will offer reflections upon concerns 
and priorities I have heard from both fellow resident board 
members and other neighbors who have contacted me. My role, in 
part, is to be an enabler, to reflect views and demands and to 
reflect upon them so as to enable the community's interest to 
be served. The basic purpose of the advisory board mechanism 
for the Corps is to provide it with a means of community review 
and comment on its proposed actions and plans.
    So today I have three basic messages for this D.C. 
Subcommittee. First, there are 1,200 households coping with the 
health and safety questions arising from the Army's 
contamination, and also coping with the potentially declining 
property values of their homes.
    Second, there is mistrust of the Army's ability to be fully 
forthcoming and actually get the job done, based on their 
having to reverse their own finding of 1995 that the 
neighborhood was clear and safe. Lawsuits among the principal 
parties, the university and the developer and the Army, have 
only served to reveal a record of non-disclosure and avoidance.
    Nonetheless, third message, there is a will to focus 
forward--that is my motto for the day, focus forward--and a 
demand to move forward with actually adequate testing and 
secure cleanup rather than to divert critical resources to 
rehearse the past.
    Let me illustrate the first message about 1,200 homeowners 
coping. I am especially moved by--and you have alluded to this, 
and I think anyone concerned with D.C.'s civic health for 
homeownership would be, too--those new homeowners who come up 
to me, wondering if this most important investment in their 
family life is about to be derailed. Parents wonder if their 
gardens are safe for their children to play in and if their 
homegrown vegetables are safe to eat. Homeowners employ garden 
workers, landscaping and construction firms which, in turn, 
wonder about the occupational safety of their workers. People 
have heard of the two cases of aplastic anemia and wonder when 
a systematic health survey will be conducted. People struggle 
to understand what to make of all the numbers for test results 
and risk levels, and mostly people worry, when will it all be 
over? When will we feel secure again?
    The second message of mistrust about full disclosure is 
manifest in the community board members' decision, as detailed 
in the meeting of July 10th, to write the Secretary of the Army 
to request that two things be provided to the community 
forthwith: A full set of documentation on the Army's dealing 
with the site, as well as the EPA's and the D.C. Health 
Department's; and second, a ranking point of contact in the 
Department of the Army who can respond authoritatively to the 
community's inquiries.
    Those are fairly specific things, and I'm sure you'll 
followup.
    The third message on the imperative to move forward with 
actually adequate testing and secure cleanup may be exemplified 
by the agenda now developing among community members. Expanded 
testing is seen as a probable need--expansion in spatial terms, 
as in adjacent property to major points of interest, and in 
chemical terms, as in applying the longer list of chemical by-
products to a wider scope of properties.
    While there is provision for expanded followup in the 
sampling protocol, there is a perception of reluctance--no 
clear schedule and a great anxiety as to whether adequate funds 
are available to get the whole job done. Perhaps most troubling 
is the whole question of munitions and related chemical 
material remaining in the ground and the questionable detection 
testing methods used to date.
    There is a newer methodological exercise under way, we 
understand, at the Army's Research Center in Huntsville, AL, 
but I think there is a growing sense that what is needed is a 
re-survey of the whole area and certainly of those high-use 
areas within Spring Valley. Such a survey should also collate 
all the evidence of disposal material--maps, lab records and 
transfer records.
    Finally, I want to convey in very strong terms the need for 
you and the Congress, if we may ask, to support a health 
survey. Dr. Walker has alluded to this. This has been 
recommended formally by the D.C. Health Department and its 
Science Advisory Panel. Your help, as I see it, is to sort out 
the government parties who can authorize this study, who can 
pay for it--what is the budget required.
    The final priority I want to raise with this D.C. 
Subcommittee is one that may even necessitate congressional 
statutory action. It concerns the question of the government's 
providing final certification of clearance of hazard to each of 
the 1,200 property owners, a clearance that would run with the 
land.
    There are two aspects to this question: insurance for 
liability of the investigative work of the government 
contractor, which is deemed inadequate; and a certification 
from the U.S. Government that would convey with the deed to the 
property and that would have firm financial backing in the 
event that the representation and warranty of the U.S. 
Government proved incorrect.
    There are, as I understand it, statutory or regulatory 
limits on the feasible amount of liability insurance that fall 
woefully short for a population of 1,200 properties; and at 
this time, we have no idea whether the U.S. Government will 
certify a final clearance of each property that meets the 
rigorous standard required in real estate for certification of 
future safety of property.
    Finally, I wish to address an implication of an option I 
understand you are considering, namely, to institute an 
independent control. I'm quoting from the Washington Post 
editorial, but obviously you have raised this in your opening 
remarks.
    I would ask two things of you as you consider this option: 
one, that you involve the community in your consultations; and 
two, that you ensure that any new structure for the project 
include a mechanism such as the presently constituted community 
advisory board. All of us are volunteers who have invested too 
much, have so demonstrated their commitment to community 
welfare and are, frankly, I think, too beneficial to the whole 
undertaking to be ignored and set aside at this stage. I 
believe you have a great resource in us in evaluating the best 
way forward, and I hope you will use it.
    Thank you for the opportunity to present my perspective.
    Mrs. Morella. Thank you very much, Ms. Shapley.
    [The prepared statement of Ms. Shapley follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.017
    
    [GRAPHIC] [TIFF OMITTED] T7354.018
    
    Mrs. Morella. And before I recognize Mr. Harrop and Mr. 
Miller, let me point out our new member of the subcommittee, 
Todd Platts from Pennsylvania, and recognize him for any 
opening comment.
    Mr. Platts. Thank you, Madam Chairman. I just appreciate 
you and Eleanor Norton holding this hearing and allowing what I 
believe will be a very productive discussion to occur on a very 
important issue, and I appreciate those who are here on the 
first panel and the panels to follow for their taking the time 
to show their knowledge and wisdom with us on this important 
issue.
    Thank you.
    Mrs. Morella. Thank you. Thank you.
    And now, Mr. William Harrop, who is president of the Spring 
Valley-Wesley Heights Citizens Association.
    Mr. Harrop. Thank you very much, Madam Chairman.
    The Spring Valley-Wesley Heights Citizens Association was 
created in the last century to promote the welfare of our two 
adjoining northwest Washington communities. I've been present 
since February 1997. We thank the committee for holding this 
public hearing to explore the contamination of our neighborhood 
by military toxic chemicals.
    Our members have several principal worries and fears. All 
of these are aggravated by a sense of uncertainty. We have 
learned that several times the Army Corps of Engineers and the 
Environmental Protection Agency decided to withhold and not act 
upon information that proved highly relevant to our welfare. 
The American University appears on some occasions to have been 
complicit. This has created an uneasy mistrust complicating the 
relationship between the Army, EPA, and American University 
with Spring Valley residents.
    The health of our families is, of course, our first 
concern. People worry that their children have for many years 
played and dug in the dirt, that gardening may have been a 
risky hobby. Rumors are rife about risk of cancer and other 
fatal diseases but nobody really knows. The Spring Valley area 
needs and deserves a comprehensive medical monitoring program 
to determine the level of harm that has been caused by the 
contaminants in our neighborhood.
    It is our understanding that the Comprehensive 
Environmental Response Compensation and Liability Act of 1980, 
the Superfund, contains provisions to allow for extensive 
public health studies. Superfund designates the Agency for 
Toxic Substances and Disease Registry as the lead agency. We 
ask your help in getting a comprehensive medical monitoring 
program under way immediately. We are very puzzled as to why 
this has not already occurred.
    Citizens' investment in their homes is the major asset of 
many people. On anecdotal evidence, residents believe there is 
already an accelerating turnover of properties caused by fear 
of contamination. They believe they should be protected from 
losses attributable to the presence of military toxins. The 
Federal Government seems unwilling or legally unable to 
indemnify homeowners against such loss.
    The D.C. Department of Health has formally warned citizens 
to minimize exposure to soil, to wear protective masks in the 
presence of dust and not to eat homegrown vegetables. The 
identification of concentrations of hazardous materials and the 
cleanup of such areas will not be completed for many months, 
probably not for many years. Meanwhile, citizens are puzzled 
and concerned that District authorities permit widespread 
construction, earth disturbance and excavation to spread on 
nearly every street in Spring Valley. New projects have begun 
in recent weeks. Either there is danger to the public from 
toxic deposits at locations not yet pinpointed, or there is 
not.
    We are particularly disturbed that, on July 19th, the D.C. 
Zoning Commission, against the recommendations of two 
neighborhood advisory commissions and six neighborhood 
associations, approved American University's 10-year expansion 
plan. This is a green light for extensive excavation and earth 
movement at specific campus locations prior to the 
identification and cleanup of chemical contamination.
    The primary purpose of the Superfund program enacted by 
Congress in 1980 is to identify contaminated sites so that a 
proper remedial investigation and evaluation can be conducted. 
The evaluation process and the process for selecting a remedy 
appropriate to address the risks discovered is contained in the 
National Contingency Plan. To ensure that all sites are 
properly and promptly identified, Superfund Section 103 
requires that those who, ``own or operate,'' such sites report 
them to EPA. This reporting obligation became effective in late 
1980 when Superfund became law. It applies to both the United 
States and to American University.
    Based on their involvement in the chemical weapons program 
conducted at AU, both the United States and AU had sufficient 
knowledge of the presence of contamination to require that the 
Spring Valley site be identified to EPA in 1980 or 1981. It is 
certainly possible that the United States and American 
University should be given the benefit of the doubt as to 
whether reporting was required as of the early 1980's. However, 
there is no excuse for their failure to file the required 
report in 1986 when both AU and the United States received 
information from the analysis of aerial photography and a 
search of the records that contamination was likely present in 
Spring Valley.
    It appears that, in 1986, the United States and American 
University jointly decided to ignore the contamination and the 
potential harm it was causing instead of making the required 
Superfund report.
    If either had made a timely report, the national 
contingency plan provisions for a thorough investigation and 
appropriate remedial action in consultation with the community 
would long since have been implemented. Despite this 
background, the allocation of historical blame is not of great 
interest to residents of Spring Valley. We want to see the work 
of identifying toxic materials and undertaking a full cleanup 
completed as rapidly as is consonant with care and 
professionalism. Citizens want assurance that the problem is 
behind us.
    However, the fact remains that no agency has implemented 
and completed all of the evaluation steps specified by the 
National Contingency Plan. We ask that the subcommittee make 
certain that adequate resources be allocated to complete this 
work expeditiously.
    We ask that the subcommittee look into the question of 
indemnification of property owners. We ask that the 
subcommittee query the District about its authorization of 
continuing earth disturbance in potentially contaminated areas. 
We ask that the subcommittee press for an immediate and 
responsible medical survey.
    We do not believe that new bureaucratic layers or 
supervisory commissions would serve a useful purpose. The 
Restoration Advisory Board can be a citizen watchdog on our 
behalf. We ask that you maintain a continuing interest in our 
complicated problems and that you leave open the possibility of 
further hearings if circumstances warrant it.
    Thank you very much for holding this hearing.
    Mrs. Morella. Thank you very much, Mr. Harrop.
    [The prepared statement of Mr. Harrop follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.019
    
    [GRAPHIC] [TIFF OMITTED] T7354.020
    
    Mrs. Morella. I would now like to recognize Edward J. 
Miller, Jr., who is the president of W.C. & A.N. Miller 
Development Co. Welcome.
    Mr. Miller. Thank you.
    Mrs. Morella. You press the buzzer. There you go.
    Mr. Miller. Good morning, and thank you for the opportunity 
to testify on this important matter. My name is Edward J. 
Miller Jr. and I'm the president of W.C. & A.N. Miller Co. My 
family has been building in the Spring Valley community for 
three generations, and I'm very proud of the role we have 
played in its development.
    The Miller Co. is a third-generation, family owned real 
estate business which was started by my grandfather and great-
uncle in 1912. We've been building our customers homes in 
Spring Valley for more than 70 years. When my grandfather and 
great-uncle purchased this property in 1926, it was a farm.
    My family and I are extremely proud to be part of this 
community; not only do we work here, but my family and friends 
live here. My mother lives on 52nd street. My sister, brother-
in-law, five nieces and nephews, live on Warren Street.
    On January 5, 1993, I received a phone call that changed 
the future of our company. I soon learned that an unexpected 
find on 52nd Court was a pit of high explosive and chemical 
munitions. To say the least, I was shocked. We had no idea that 
anything like this was lurking beneath the surface of our 
property or elsewhere in Spring Valley.
    By 1995, at the conclusion of the investigation, I felt 
that our community and our lives were back to normal, based in 
part on the Corps's statement that no further action was 
required. Prior to January 1993, the Miller Co. had no 
knowledge about the Army's burial of chemical munitions or war-
related soil contamination in Spring Valley. There were no 
warnings in the deeds, no science, flags, markers or other 
warning devices. We had no anecdotal information about the 
Army's disregard for the future inhabitants of this beautiful 
neighborhood.
    Shortly after the discovery of the munitions pit, it was 
revealed that the Army, EPA and American University had 
possession of an undisclosed report from 1986, documenting the 
area's use as a chemical weapons testing ground. That report 
concluded that additional munitions might be buried in the 
area. For the record, the Miller Co. never had any knowledge 
about this internal report until after January 5, 1993.
    The Army's failure to warn the Miller Co. about the buried 
munitions caused us substantial harm and expense. During the 
investigation, we devoted substantial resources to ensure that 
the people of this community were safe. When we asked the Army 
to reimburse us for these costs, as they were doing for others 
in the community, we were informed that we would have to file a 
claim under the Federal Tort Claims Act. For this reason, we 
filed a lawsuit against the government in 1995. The ultimate 
settlement barely covered our costs.
    The company's lack of knowledge about the area's historical 
use was documented in an affidavit prepared by my late father, 
who was born in 1925 and grew up in nearby Wesley Heights and 
Spring Valley. As a child, he played in the neighborhood, rode 
his pony around World War II victory barns near where the 
munitions were discovered.
    He also described the many famous people for whom he built 
homes in the neighborhood, including Vice President Lyndon 
Johnson, Richard Nixon and Supreme Court Justice Black. The 
Miller Co.'s chief architect for 60 years, Ed Spano, also 
raised his family within 300 feet of the original discovery in 
1993. None of them ever mentioned any knowledge about the 
Army's activities.
    The U.S. District Court has twice ruled that the government 
was liable for failing to warn the Miller Co. and the community 
about buried munitions.
    But that is the past. I believe that the Spring Valley 
community, working closely with the D.C. government and Federal 
agencies, has provided a level of oversight that has resulted 
and will continue to result in an open and communicative 
process that will achieve the highest standard of care for the 
health and safety of the residents of Spring Valley.
    It is undeniable that mistakes were made. Nevertheless, I 
believe that the Army generally did a good job. The remaining 
concerns appear limited and isolated, and I believe working 
together as we have successfully in the past, we can again get 
through this as well.
    The Spring Valley neighborhood remains one of the most 
desirable communities in the country. According to real estate 
data from MRIS, over the past 5 years, home sales in Spring 
Valley have averaged 51 homes per year, with an average 
increase in sales price for the same period of over 114 
percent.
    In closing, I challenge the Army, the EPA and the District 
government to commit the appropriate resources to identify and 
remediate any residual risks to our community. At the end of 
the day, the community needs to have complete confidence that 
no further action is required.
    Thank you for the opportunity to address you today.
    Mrs. Morella. Thank you very much, Mr. Miller.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.021
    
    [GRAPHIC] [TIFF OMITTED] T7354.022
    
    [GRAPHIC] [TIFF OMITTED] T7354.023
    
    [GRAPHIC] [TIFF OMITTED] T7354.024
    
    [GRAPHIC] [TIFF OMITTED] T7354.025
    
    [GRAPHIC] [TIFF OMITTED] T7354.026
    
    [GRAPHIC] [TIFF OMITTED] T7354.027
    
    [GRAPHIC] [TIFF OMITTED] T7354.028
    
    [GRAPHIC] [TIFF OMITTED] T7354.029
    
    [GRAPHIC] [TIFF OMITTED] T7354.204
    
    [GRAPHIC] [TIFF OMITTED] T7354.205
    
    [GRAPHIC] [TIFF OMITTED] T7354.206
    
    [GRAPHIC] [TIFF OMITTED] T7354.207
    
    [GRAPHIC] [TIFF OMITTED] T7354.208
    
    [GRAPHIC] [TIFF OMITTED] T7354.209
    
    [GRAPHIC] [TIFF OMITTED] T7354.210
    
    [GRAPHIC] [TIFF OMITTED] T7354.211
    
    [GRAPHIC] [TIFF OMITTED] T7354.212
    
    [GRAPHIC] [TIFF OMITTED] T7354.213
    
    [GRAPHIC] [TIFF OMITTED] T7354.214
    
    [GRAPHIC] [TIFF OMITTED] T7354.215
    
    [GRAPHIC] [TIFF OMITTED] T7354.216
    
    [GRAPHIC] [TIFF OMITTED] T7354.217
    
    [GRAPHIC] [TIFF OMITTED] T7354.218
    
    [GRAPHIC] [TIFF OMITTED] T7354.219
    
    [GRAPHIC] [TIFF OMITTED] T7354.220
    
    [GRAPHIC] [TIFF OMITTED] T7354.221
    
    [GRAPHIC] [TIFF OMITTED] T7354.222
    
    [GRAPHIC] [TIFF OMITTED] T7354.223
    
    [GRAPHIC] [TIFF OMITTED] T7354.224
    
    [GRAPHIC] [TIFF OMITTED] T7354.225
    
    [GRAPHIC] [TIFF OMITTED] T7354.226
    
    [GRAPHIC] [TIFF OMITTED] T7354.227
    
    [GRAPHIC] [TIFF OMITTED] T7354.228
    
    [GRAPHIC] [TIFF OMITTED] T7354.229
    
    [GRAPHIC] [TIFF OMITTED] T7354.230
    
    [GRAPHIC] [TIFF OMITTED] T7354.231
    
    Mrs. Morella. I'm now going to ask Dr. Walks, Ivan C.A. 
Walks, and Theodore Gordon and Dr. Richard Albright if they 
would stand so I could administer an oath before they testify. 
If you would raise your right hands, gentlemen.
    [Witnesses sworn.]
    Mrs. Morella. The record, again, will demonstrate and state 
an affirmative response.
    We have asked those who are testifying to try to confine 
their comments to 5 minutes. I think you're the one who 
basically is going to be testifying, Dr. Walks, and perhaps 
they will be assisting in some way. So I would be happy to 
recognize you.
    Oh, and before I do, I would like to introduce to those who 
are here today the newest member of our subcommittee. I think 
this will be her very first meeting. I had already introduced 
her before she arrived, Diane Watson, who is from California, 
and who replaced the late Julian Dixon. She will be a very 
valuable addition to this subcommittee.
    Welcome. Did you have an opening comment you wanted to 
make, Congresswoman Watson?
    Ms. Watson. Madam Chair, I would like to say thank you for 
the introduction, and it is quite a privilege to serve on the 
Committee on Government Reform. I look forward to addressing 
some of the issues that have been identified in the past and 
will be ongoing.
    I also look forward to serving on the Subcommittee on the 
District of Columbia, along with our esteemed representative 
from D.C., and I hope to be able to be effective, and I will 
take my lead from the Chair and the ranking member on the D.C. 
Subcommittee, Ms. Norton. I look forward to the work that is 
ahead and the challenge, too, and thank you so much.
    Mrs. Morella. Thank you. We're delighted to have you on 
board.
    And so now, Dr. Walks.
    Mr. Walks. Good morning, Madam Chairman Morella, Ms. 
Norton, Mr. Platts, and Ms. Watson. I am particularly excited 
to see Ms. Watson, who I had the pleasure of working with years 
ago in California.
    I am Dr. Ivan Walks. I'm the chief health officer of the 
District of Columbia and director of the Department of Health. 
With me today are Theodore J. Gordon, our chief operating 
officer for the Department of Health; Dr. Richard Albright; and 
other senior scientists with the District of Columbia 
Department of Health. We appreciate this opportunity to 
testify, and commend you for convening this hearing, because 
the discussion here this morning further supports the efforts 
of the District of Columbia Department of Health to eliminate 
the issues regarding environmental exposures to contaminants in 
the Spring Valley community.
    We are also committed to continuously informing the 
affected community and involving them in our decisionmaking 
procedures designed to address their concerns. We cannot 
overemphasize the importance of an ongoing interaction between 
the District government and members of the Spring Valley 
community. There can be no substitute for an informed community 
and the basic right to feel safe in your own home. That theme 
will continue to guide our efforts in the Spring Valley 
community and in any other community in our basic mission to 
prevent disease, dysfunction and premature death.
    Allow me now to turn to the substantive issues regarding 
Spring Valley. My testimony will cover the current activities 
and the recent history of the Department of Health and will 
then cover the history and the activities of the Army Corps of 
Engineers.
    Mayor Anthony Williams has assembled an independent group, 
the Spring Valley Scientific Advisory Panel. You've already 
heard from Dr. Walker this morning; and I'm sure he's covered 
the composition of that advisory panel.
    Mayor Williams is profoundly concerned about the health and 
welfare of all District residents and, in particular, with 
respect to this hearing, those in the Spring Valley community. 
Mayor Williams charged that advisory panel with advising the 
Department of Health and providing recommendations following 
the review of data collected in the assessment of potential 
exposure to environmental contaminants in Spring Valley.
    They were also charged to review the results of biological 
assessment of exposure to environmental contaminants and to 
review morbidity and mortality data relevant to health trends 
in the Spring Valley community.
    During its first meeting, the panel reviewed information 
provided by the Army Corps of Engineers, the Agency for Toxic 
Substances and Disease Registry [ATSDR], American University 
and the Department of Health. The information included existing 
soil sample results and the expanded soil sampling plan of the 
U.S. Army Corps of Engineers. It also included results of the 
exposure investigation of the American University Child 
Development Center conducted by ATSDR at the request of the 
Department of Health.
    Additionally, results of an additional exposure 
investigation conducted by American University of its 
groundskeeper and maintenance staff, a summary of the health 
effects associated with arsenic exposure in the scientific 
literature and a comparison of the cancer incidence and 
mortality trends in the Spring Valley community as compared to 
an identified control community.
    The Department of Health concurs with and will follow the 
recommendations of the Mayor's Spring Valley Scientific 
Advisory Panel. Our comprehensive plan will include additional 
analyses of the cancer incidence and mortality data from Spring 
Valley, with an additional comparison community from Maryland. 
The Maryland Department of Health has agreed to provide the 
comparative data.
    In addition, we will provide biomonitoring, which is an 
exposure investigation for a sample of the Spring Valley 
residents. We have requested that the ATSDR provide technical 
assistance by conducting an additional exposure investigation 
of a sample of the Spring Valley residents.
    Further, to complete an additional recommendation of the 
Spring Valley Scientific Advisory Panel, the Department of 
Health will collaborate with the Environmental Protection 
Agency and the U.S. Army Corps of Engineers to develop a risk 
communication strategy, the interpretation and translation of 
all environmental and health-related data collected for the 
residents of Spring Valley. The Department of Health has kept 
the Spring Valley community informed of the issues by 
disseminating a quarterly Spring Valley newsletter.
    We have held Spring Valley community meetings and currently 
participate on the Army Corps of Engineers Restoration Advisory 
Board. The Department of Health has met with the U.S. Army 
Corps of Engineers and the EPA to discuss the expanded soil 
sampling plan proposed in the Spring Valley community and has 
agreed with the final plan.
    Prior to convening the Spring Valley Scientific Advisory 
Panel, the Department of Health performed several activities. 
In August 1998, before the intrusive investigation began, the 
Department of Health demanded the use of stronger measures to 
protect the neighborhood. The Army Corps of Engineers agreed to 
use a steel vapor containment structure over the intrusive 
investigation area.
    From February 1999 to April 2001, intrusive investigation 
began at the Korean ambassador's residence and uncovered 680 
pieces of munitions and laboratory equipment in two separate 
burial pits. Several of the items found contained chemical 
warfare materiel.
    In December 2000, the District requested that the Army 
Corps of Engineers sample the soil at the CDC. The results 
indicated that arsenic levels were elevated and the District 
requested that the Army Corps of Engineers conduct an emergency 
removal of that soil.
    Further testing was done at the CDC where results were as 
high as 498 parts per million of arsenic. That's against a 
background level for that area of less than 20.
    The District received these results on Wednesday, January 
17, 2001. The Department of Health requested technical 
assistance from ATSDR on January 18, 2001 to test all children 
currently enrolled at the Child Development Center for arsenic 
exposure. The ATSDR completed hair sampling of all enrolled 
children at the CDC on February 1, 2001. DOH met on March 9 
with the Army Corps of Engineers and the EPA to discuss soil 
sampling options. Mayor Anthony Williams held the first Spring 
Valley Scientific Advisory Panel meeting on April 25, 2001 in 
the District.
    Should the results of the Army Corps of Engineers' expanded 
soil sampling reveal other contaminants of concern, the 
Department of Health is committed to assessing and mitigating 
the risks to human health from cancerous and noncancerous 
effects.
    We would be remiss if we did not identify the important 
role being played by other Federal agencies. The Department of 
Health appreciates the support that the District has received 
from the Environmental Protection Agency through the ATSDR. DOH 
was able to quickly address the concerns of parents and 
children enrolled at the American University Child Development 
Center. ATSDR conducted an exposure investigation of arsenic 
and provided biological monitoring.
    I will conclude my statement at this time and submit the 
remainder of my testimony for the record. Again, thank you, 
Madam Chairperson and other members of the subcommittee, for 
this opportunity to testify. Myself, Mr. Gordon, Dr. Albright 
and other members of the senior scientific staff at the 
Department of Health are here to respond to your questions. 
Thank you.
    [The prepared statement of Dr. Walks follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.030
    
    [GRAPHIC] [TIFF OMITTED] T7354.031
    
    [GRAPHIC] [TIFF OMITTED] T7354.032
    
    [GRAPHIC] [TIFF OMITTED] T7354.033
    
    [GRAPHIC] [TIFF OMITTED] T7354.034
    
    [GRAPHIC] [TIFF OMITTED] T7354.035
    
    [GRAPHIC] [TIFF OMITTED] T7354.036
    
    [GRAPHIC] [TIFF OMITTED] T7354.037
    
    [GRAPHIC] [TIFF OMITTED] T7354.038
    
    [GRAPHIC] [TIFF OMITTED] T7354.039
    
    [GRAPHIC] [TIFF OMITTED] T7354.040
    
    [GRAPHIC] [TIFF OMITTED] T7354.041
    
    [GRAPHIC] [TIFF OMITTED] T7354.042
    
    [GRAPHIC] [TIFF OMITTED] T7354.043
    
    Mrs. Morella. Thank you, Dr. Walks. We will be going in 
order. I will start off with the ranking member, Mr. Platts, 
Ms. Watson. We'll try to keep our questioning to about 5 
minutes and maybe go more than one round.
    So I will start off, then, with Dr. Walks. Arsenic has been 
found in Spring Valley in levels requiring immediate removal. 
I'm going to ask you, why is arsenic so dangerous? And then I 
would like to have you further expand on what other dangerous 
chemicals have been found in Spring Valley and could you also 
explain their dangers as well.
    Dr. Walks. Yes, ma'am. I'll speak to the specific dangers 
of arsenic and then I'll ask Mr. Gordon to talk about some of 
the other chemicals and their specific concerns. Flat answer is 
arsenic causes cancer. It is dangerous, it is deadly, and with 
background ranges in different communities--arsenic is found in 
pesticides and other materials that are used in our 
communities--but background levels typically range from as low 
as 2 to 3 parts per million to no higher than 20. A level of 
nearly 500 is extremely dangerous, and any level over 43 
requires immediate mitigation. So we are profoundly concerned 
about this level of arsenic being found in that community, and 
Mr. Gordon can talk about some of the other chemicals.
    Mrs. Morella. This level is--like I see in your testimony--
is as high as 1,200 parts per million.
    Dr. Walks. That's correct.
    Mrs. Morella. You're saying anything over 43 is dangerous?
    Dr. Walks. Anything over 43 requires immediate removal. 
Even levels below 43 require mitigation.
    Mrs. Morella. Has 43 always been the standard?
    Dr. Walks. I don't know the answer to that. Let me ask Mr. 
Gordon to address that.
    Mrs. Morella. Thank you.
    Mr. Gordon. Good morning, Chairwoman, and members of the 
committee. My name is Theodore Gordon. I'm the chief operating 
officer for the Department of Health; 43 is the U.S. 
Environmental Protection Agency standard for immediate removal. 
That has been the standard.
    The other chemical of concern certainly is lucite. Lucite 
is a vesicant which means when it's exposed, it penetrates the 
skin and blisters the skin, and if it's inhaled, it blisters 
the lungs and can cause immediate death.
    And certainly the other chemical is mustard gas. Mustard 
gas is also a vesicant that also when exposed to the skin or 
lungs causes blistering. Mustard takes a longer time but it's 
just as deadly as the lucite. These are the two other chemicals 
that we have great concern about in the Spring Valley area in 
addition to the arsenic. And, of course, arsenic being a heavy 
metal, we know that it remains fairly stable in the soil over 
an extended period of time.
    Mrs. Morella. What is the life of arsenic in terms of its 
hazardous potential?
    Mr. Gordon. Arsenic, being a heavy metal, has a very long 
stability. It doesn't deteriorate over a period of time. That's 
why we're finding the concentrations that we're finding today. 
I would add that arsenic or arsenicals were found in 
pesticides. That's why they have established what they consider 
background levels.
    We know that we're going to find some level of arsenic in 
the environment because it was in pesticides and it was widely 
used in the fifties and sixties until it was banned by the U.S. 
Environmental Protection Agency. Background levels for arsenic 
in this area is around 2 parts per million. It ranges 
differently, but not to exceed that 2 parts per million 
throughout the country.
    Here, we're finding concentrations as high as 1,200 parts 
per million, as we found at the residence of the American 
University president's home, and 498 parts per million we found 
at the Child Development Center on the AU campus. That gives us 
great concern. It has a long stability. It's something that 
doesn't degenerate over a period of time, and it's not 
necessarily mobile. It doesn't move. It stays in the soil.
    Mrs. Morella. So lucite and mustard gas, are they not 
detected at a certain point?
    Mr. Gordon. Mustard gas and lucite do in fact--will 
deteriorate over a period of time, and a lot depends on how 
they're contained and what type of container they're in, and if 
it leaks, if it's exposed, it does deteriorate. If it's in a 
canister that is contained, it could be highly toxic.
    Mrs. Morella. What's the long-term exposure to those 
chemicals? What does that mean? A public health risk; how high 
is the risk over a long term?
    Mr. Gordon. Well, certainly when you have exposure, a long-
term exposure, the higher the risk. And of course there are--
when we look at the various pathways for possible disease, 
there are essentially three. One is through inhalation into the 
lungs. The other is contact on the skin and absorption through 
the skin, and the third is ingestion. And when you have 
continuous exposure, the risk certainly goes up.
    Mrs. Morella. Just let me ask you, are there any other 
contaminated sites in the District of Columbia?
    Mr. Gordon. We have a number of sites that we're 
investigating. Camp Simms was a site that we're working with 
the Army Corps of Engineers, as you may know, has been 
identified as a major development area for the city. We want to 
make sure that everything has been taken care of. Of course the 
Navy Yard, we have--the Navy Yard is the only Superfund site in 
the District of Columbia, and the District of Columbia is a 
partner with the U.S. Environmental Protection Agency in 
cleaning up the Navy Yard as a Superfund site.
    We also have an area up at the University of the District 
of Columbia which was--the former Bureau of Printing and 
Engraving was located there. We have some reason to believe 
there that there may be some contamination at that site and 
also at Catholic University. Catholic University was involved, 
along with American University, in the development of chemical 
warfare materials.
    Mrs. Morella. It would be interesting if you could submit 
to us the degree of contamination of those different areas that 
you just cited.
    Mr. Gordon. We would----
    Mrs. Morella. We don't need them right now, but I----
    Mr. Gordon. Certainly.
    Mrs. Morella. I just want to ask you, have you--Dalecarlia 
Reservoir is so close. Have you tested the water at all there?
    Mr. Gordon. We have provided the Mayor's Scientific 
Advisory Panel with 20 years of water quality monitoring data, 
and that is under review by the Scientific Advisory Panel. We 
are waiting for their review of that data to determine what the 
concentrations and levels of arsenic may be over that 20-year 
period of time.
    Mrs. Morella. I see. Thank you. My time has expired. I now 
recognize our ranking member, Ms. Norton, for her first 
questioning.
    Ms. Norton. Thank you, Madam Chair. And I want to thank all 
the witnesses because your testimony has been very useful. I 
want to especially thank my own constituents, who I will call 
our civilian witnesses, those for whom toxic monitoring is not 
your day job, for the service you are rendering to our 
community: Ms. Shapley of the Spring Valley Restoration Board 
and Mr. Harrop of the Spring Valley/Wesley Heights Citizens 
Association. Your very professional work is much appreciated 
not only by your neighbors, but by all of us.
    I want to get to what concerns me most. I think those of 
you who have spoken about what should come first are correct 
when you say let's look first to the health concerns, let's 
take those off the table while we continue to remediate; 
because while it is important for the community to know that 
remediation is taking place, this cloud hangs over us. 
Therefore, I cannot figure out why all of your testimony seems 
to reveal that no systematic health survey is in progress.
    On April 2nd, I wrote to Secretary Thompson, after going to 
Spring Valley once again and being alerted to problems that had 
yet again risen, and in this letter I asked for further help 
from the Agency for Toxic Substances and Disease Registry, 
which of course has already been helpful to the District.
    And let me read to you what I said and the response I got: 
The fact that chemical warfare agents and their breakdown 
byproducts have been identified in areas that are now 
overwhelmingly residential suggests that local citizens may 
have had relatively long-term exposures to a set of 
contaminants that is highly unusual.
    And then I asked, because of the unique circumstances at 
Spring Valley and because the contamination was caused by the 
Federal Government, is it appropriate for the Department to 
partner with local health officials in an epidemiological 
study. In addition, should the initial review reveal the need 
for more analytical studies to be conducted, I am requesting 
that the Department provide both the personnel and funding 
necessary to meet those needs.
    I appreciate the letter I got back from Secretary Thompson 
in which he spoke about what had been done. Apparently ATSDR 
has been helpful with health consultations, with the exposure 
investigation at the Child Development Center, and with 
technical assistance. And he promised further technical 
assistance.
    Well, I tell you, if we are this late in the game and 
nobody is doing a systematic health study, systematic health 
survey, I have to ask you, why not? I want to know that from 
the Department of Health. I want to know if--since it is 
obviously the indicated thing to do, since it's got to be what 
the community and the city is most concerned about, why isn't a 
systematic health survey now underway, and are there plans to 
have such a survey underway now?
    Dr. Walks. Yes, ma'am. There is in fact that plan. It is 
our top priority at the Department of Health. We did, in fact, 
have all of the children tested at the Child Development Center 
and the ATSDR assisted us with that testing, and those children 
were found not to have elevated levels; so they were OK.
    Ms. Norton. That's the kind of ad hoc approach that I'm 
railing against here. I don't know what a systematic 
epidemiological survey would consist of. I don't know what a 
health survey would constitute. All I know is investigating the 
children at a child care center, only when you get into a 
panic, is not what I mean.
    Dr. Walks. And you're right, and that is not how you 
develop a systematic plan. What we did was to respond 
immediately to the concerns of those children, and I wanted to 
report that we did that, because even though we are planning 
and we have a comprehensive long-term plan, immediate response 
to children at risk is absolutely what we would do.
    Ms. Norton. I'm well aware of that. Dr. Walks, there was 
some testimony--I think it was Dr. Walker--somebody testified 
that somebody was doing a control study----
    Dr. Walks. I did.
    Ms. Norton [continuing]. And the control study initially 
chose the community next door, next door to Spring Valley. One 
doesn't have to be a physician to know that's not the way to 
begin. So we have incompetence and even excavation to find out 
if there is--how remediation should be done. Are we beginning 
with incompetence for whatever health survey has already been 
initiated? Dr. Walker, was it you who testified and who----
    Mr. Walker. Yeah. And let me comment on that, Ms. Norton. 
At our first meeting of the Science Advisory Panel, we had a 
number of presentations, and one was from the District of 
Columbia government. The epidemiologist on our Science Advisory 
Panel felt that if the control population was too close to the 
Spring Valley community, then there was a high probability that 
that population may, and I underscore ``may,'' have been 
exposed, and therefore to get a, quote-unquote, nonexposed 
population to the Spring Valley contaminant, we suggested that 
they select another community at some distance----
    Ms. Norton. Dr. Walker, that was your testimony. What I'm 
trying to find out is who selected the community right next to 
Spring Valley in the first place? Whose idea was it that the 
way to do a control study was to get folks who might have also 
been affected by the same toxic waste and use them as a control 
study?
    Mr. Walker. I don't think that we could characterize it as 
a control study. I think it was just an analysis of two 
adjacent communities.
    Ms. Norton. I see.
    Mr. Walker. And we are calling for the----
    Ms. Norton. Was D.C. doing that analysis? Who was doing 
that analysis?
    Mr. Walker. D.C. has the Cancer Registry, and their initial 
thrust was to look at two adjacent communities.
    Ms. Norton. I see. This is why I believe--not only do I 
want somebody other than the Army to certify when the 
remediation is done, that in fact has been commonly done. I'm 
not sure that without additional help we can depend upon 
whatever health survey is done, and I still don't know who is 
supposed to do the health survey. Dr. Walks, perhaps you can 
tell me that.
    Dr. Walks. The Department of Health is supposed to monitor, 
oversee, and certify the results of any health survey. We are 
ultimately responsible, working as the Mayor's agent, to ensure 
that District residents are safe and have safe homes.
    Ms. Norton. Why hasn't a health survey been started? Are 
funds necessary to do it?
    Dr. Walks. Funds are in fact necessary. And one of the 
struggles that we have at the Department of Health, and this is 
true in other environmental contamination cases, we think that 
if our District environment is contaminated by an outside 
agent, it's incumbent upon them to pay while we supervise the 
work being done independently, and we have requested additional 
funds. Now, we have gotten positive responses thus far and we 
are going forward with an investigation.
    Ms. Norton. You have gotten funds from where?
    Dr. Walks. We have gotten technical assistance, and to me 
that's--those are resources from ATSDR. We are continuing to 
request additional assessment resources from them.
    Ms. Norton. I am very grateful for what HHS and ATSDR has 
done. We will have later witnesses from CDC who I think become 
very important as we look at what kind of health survey is 
adequate and how it can be done rapidly.
    Dr. Walks. Let me----
    Ms. Norton. Dr. Gordon, did you have something to----
    Dr. Walks. Let me just add before, Mr. Gordon speaks, one 
of the things that we would like is additional resources so 
that we can do the sampling ourselves. I think that it's 
incumbent upon the District to be able to satisfy our residents 
that we are able to certify these findings. We currently don't 
have the resources in our lab to do the samples ourselves, to 
do the testing ourselves, and we'd like to be able to do that, 
and so we are requesting those additional resources.
    Ms. Norton. Who's doing it now? Who is----
    Mr. Gordon. The sampling is being done by the Army Corps of 
Engineers and the U.S. Environmental Protection Agency. We have 
a grant from the Department of the Army to perform the 
oversight of this whole Spring Valley area.
    Our grant originally was $250,000, and in 1997 that grant 
was cut by the Department of the Army by $80,000. We need 
additional scientists on our staff to assist in the monitoring 
of the expanded areas and points of interest that are going to 
be remediated over the next years.
    I have sent a letter to the Assistant Secretary of the 
Army, requesting reinstatement of that $80,000, and with part 
of that money we will be able to do some sampling. Under the 
Federal authorization, we are only permitted to use 10 percent 
of that grant toward sampling of the site, the pulled split 
samples.
    Certainly we would want to be, Congressman Norton, in the 
position of pulling split samples to verify the accuracy of the 
information that's being collected by the Army and the U.S. 
Environmental Protection Agency.
    Ms. Norton. But there's nobody monitoring them and they are 
primarily responsible for this problem in the first place.
    Mr. Gordon. That's right.
    Ms. Norton. Why did they limit the amount of money from the 
grant you could spend on your own sampling?
    Mr. Gordon. I think it's in the law; it's in the actual law 
that authorizes them to provide us with the funding to do the 
oversight. That's what we've been told.
    Ms. Norton. Ms. Shapley had a----
    Ms. Shapley. May I offer just----
    Ms. Norton. Yes.
    Ms. Shapley [continuing]. To pitch in a little bit on this? 
One of your concerns expressed at the outset was the question 
of timing and pace of things. One of the things that I'm 
certainly going to be bringing before the Advisory Board for us 
to discuss--and I've shared this with the U.S. Army Corps of 
Engineers--is the need for a clear, what I call ``big block 
critical path time line'' that covers these two very distinctly 
different tracks of effort and the one track is the testing for 
cleanup. That's the soil sampling that's going on. That's the 
sampling that's going on in the central testing area, in the 
high-use areas where you get all those high spike numbers 
because they were high-use areas. And then you have the 
surrounding community.
    It's important to distinguish we have high-use areas and we 
have the peripheral areas. That initial testing provides the 
only empirical data on which Dr. Walker and the Health 
Department can proceed with any health survey. That's how they 
identify, in fact, how to construct a statistical sample for 
any of the--and there are actually several--components to this 
health survey question.
    So I want to make clear, there is a relationship between 
these two tracks of effort; and you have to get to an end point 
in one, intersect it with the other, and then you can go 
forward to stage two.
    I don't want to belabor this too much, but I think that 
needs to be the essential context to take away from this. We 
have 1,200 households. We have less than 700 that have signed 
up for right of entry to do the first round of testing.
    Ms. Norton. Why are less than 700 signed up?
    Ms. Shapley. Well, I think part of it is that there was a 
great flood of interest--and the Army can testify to that--that 
got the response to an appeal for people to send in their 
right-of-entry forms which the Army mailed out to every 
household. And then I think there was so much information 
flowing through the mail slots that people, in effect, they got 
set aside by a number of people. And I know the Army is 
struggling with how to now push up that number so that they get 
the 1,200 rights of entry, because if they don't have that, 
they can't get the 1,200 unit data set, which is what we all 
need for, in effect, any of this assessment to go forward. And 
certainly the community board is very concerned about this 
progress.
    I want to make one last remark on timing here. There are 
seasons of the year where it's appropriate to do outdoor field 
work. We are now down to August 1, prime time, running past us 
to do outdoor field work.
    We don't have enough people signed up. We are not getting 
through enough, in my view, of this stage 1 testing, so that 
when I look at the big picture of the calendar, what I'm 
looking at is what's going to get accomplished in the prime 
time's field work seasons versus what gets done during the down 
time in-house--indoor seasons, so to speak. And so that becomes 
another controlling limit as far as I understand it, on, in 
fact, accomplishing these various things you're talking about.
    Mrs. Morella. The gentlewoman's time has expired. Mr. 
Platts.
    Mr. Platts. Thank you, Madam Chairman. I again want to 
thank all panelists for your testimony and the very merit-based 
arguments you make for the need for very timely and responsible 
action to be taken. And it's long past being overdue. It needs 
to move forward very quickly.
    I have one specific question, Dr. Walks, on the assessments 
you have done. And I understand you're still developing the 
comprehensive, but for the Child Development Center you 
mentioned testing the children at the center. How, I guess, 
long has the center been in operation at that facility and did 
you test adults who work at the facility who have worked there 
for any length of time, more than--the children kind of rotate 
through the center for a year or two, I would imagine, versus 
employees that have been there for many years, if it's a 
longstanding facility. I'm not sure it is.
    Dr. Walks. We did, in fact, pull hair samples for the 
children to test them. And I'm not sure if we did test the 
adults there. I don't think we did. Did we?
    Mr. Gordon. That is being handled through American 
University. They have hired their own toxicologist, and we have 
provided them with the data. We not only collected hair 
samples, but we also did urine samples as well, because arsenic 
has a tendency to collect in the urine, particularly of younger 
people. That all came back negative. We advised the American 
University of this data and they were proceeding with their own 
employees and own separate testing of the workers at the Child 
Development facility and other maintenance workers as well.
    Mr. Platts. At this point from the adults who maybe have 
more years of exposure at the facility, we don't have any data 
available----
    Dr. Walks. We actually do have some. That's why it's nice 
to have a team of senior scientists running around behind you. 
We did offer testing to the adults who worked in the day care 
facility. Four of them did agree to participate, and their test 
results came back clean. And American University did also offer 
testing for their grounds keepers. Thus far, both the children 
and the adults that we tested came back with a clean bill of 
health.
    Mr. Platts. OK. Thank you, Madam Chairman.
    Mrs. Morella. Thank you Mr, Platts. Ms. Watson is 
recognized for questions.
    Ms. Watson. Thank you, Madam Chairman. And I want to say 
hello to Dr. Walks, and it's good to see you again.
    I have some questions that run along the same lines as my 
colleagues. Is there a plan to do long-term studies? Because 
sometimes the contamination doesn't show up, and over a period 
of years there will be a development. So what is your plan in 
terms of long-term studies?
    Dr. Walks. We actually do have that, and I think that Dr. 
Walker can maybe speak to the Scientific Advisory Panel's 
efforts in that area. But, clearly, when you're looking at 
cancer-causing agents, short-term studies only show you 
exposure. Long-term studies show you effects. So you're going 
exactly where you need to go, and maybe Dr. Walker can talk 
about some of those recommendations.
    Mr. Walker. Well, I think that the recommendations of the 
Scientific Advisory Panel includes doing further studies. But I 
think the most important----
    Ms. Watson. On that point, on the same population that you 
have taken samples, are you going to do further studies on the 
people whose samples you've already taken?
    Mr. Walker. It is our recommendation. Now, there's always 
two approaches when you're dealing with environmental issues. 
You can start with the disease and work back and look at the 
environment, or you can start with the environment and work 
back and look at the disease.
    Ms. Watson. It's the human element I'm concerned about.
    Mr. Walker. Yes. Here we have said let's see what the soil 
samples, soil analysis, show; and then let's determine from 
that where we need to do biomonitoring to determine what may be 
in the bodies of those people who live on those sites. The 
Cancer Register, that is, under the supervision of the District 
of Columbia government, will give us some indication as to 
whether or not the incidence of cancer in the Spring Valley 
area is higher or lower than in some other community where 
there is a similar socioeconomic profile. We have to match 
these by socioeconomic profiles.
    Let me further add that this is a complex issue because the 
primary concern has been arsenic, and it's very difficult to 
characterize arsenic as a single element. There are many forms 
of this kind of compound, and we have asked--recommended that 
the Corps of Engineers try to sort out what specific component 
arsenic component we're talking about here, because these 
components vary. And unless we are able to specify which form 
we are talking about, we may reach some conclusions that are 
not valid, so----
    Ms. Watson. Dr. Walker and Dr. Watson, anyone else that can 
respond, will you be recommending long-term studies on the 
population that were tested in an ad hoc way? Now, when you 
finally decipher what you're testing for, arsenic or any other 
chemical that contaminates, will there be long-range studies on 
the same people that were tested: children, adults, or whoever?
    Mr. Walker. From the Science Advisory Panel standpoint, I 
don't think we have a sufficient amount of data to be able to 
make that determination now. I think we need more----
    Ms. Watson. Thank you. You just answered my question. Is 
there any concern about doing fetal monitoring, women who are 
in their childbearing years, women who are pregnant? Is there 
any concern about them, and will they then be tested while 
they're pregnant?
    Mr. Walker. Again, we need to be more specific about the 
form of arsenic we're talking about.
    Ms. Watson. So I guess the answer is no?
    Dr. Walks. Let me answer the question this way.
    Ms. Watson. Please.
    Dr. Walks. We have come into this whole Spring Valley 
issue, I think, years late. The Department of Health first had 
resources to investigate this only in late 1995, as has been 
previously testified to. Assessments at the site were safe on 
more than one occasion.
    We are beginning to understand the severity of this problem 
that we have, and we are committed, and I know that the Mayor 
of the District of Columbia is committed to each resident 
feeling safe in their home at all times. We will investigate 
exactly what compounds we have, and when we determine the best 
scientific course of action, we will take it. We will take it 
aggressively. We will aggressively seek funding to support 
those efforts. And any individual who is at risk, we will give 
that individual the opportunity to be checked now and to be 
followed, and we will advise them of what they need to be 
concerned about down the road, so if they move out of the area 
they will have information.
    To that end, we are publishing a quarterly Spring Valley 
Committee Advisory newsletter to let them know of our findings, 
and we have held several community meetings and will continue 
to meet with them. The concerns you raise are the same concerns 
we share at the Department of Health and we will address those.
    Ms. Watson. You then will be developing a protocol. I would 
like to suggest that we do long-term studies on the Spring 
Valley residents, all of them.
    You talked about the need for 1,200 right of entry, and I 
was concerned about the outreach. You just told me that you're 
publishing every quarter. I think we need to get public health 
personnel involved, to go into communities, go into homes, 
interpret what's in that flyer.
    Dr. Walks. You're exactly right. This is not Field of 
Dreams: If you build it, they will come.
    And the Department of Health has a clear understanding of 
the need to be out of our offices in the community. To that 
end, our senior scientists including, Dr. Albright, Dr. Stokes, 
who is here in the audience with us today--we have been in that 
community at several community meetings, and we are available 
not just for technical assistance to other scientists, but if 
community members have questions, they can call the Department 
of Health. We will come to a meeting of 2 people or 200 people 
to help people understand best how to stay healthy in the 
District.
    Ms. Watson. Sometimes community people don't even know the 
questions to ask. So you have to take a proactive approach and 
answer questions before they ask.
    Dr. Walks. Absolutely.
    Ms. Watson. The Cancer Registry is after the fact. We need 
to study the people who lived in that area, be able to 
identify--you're going to do your scientific research, but you 
need a protocol and you also need to start looking at the 
effects on women during their childbearing years, so the fetal 
monitoring comes in.
    Let me just end with this. I have seen the same situation 
happen throughout the world when we have abandoned bases. I 
just came back from Bermuda where we abandoned our naval base 
there. We abandon and leave it like it is when we leave. We 
don't treat it. And I would think that we need to go the next 
step, too, and look at all of our abandoned bases and set up a 
protocol of plan. It is affecting the population there.
    So here I would like to see, when you finish your 
scientific discussion and you identify what the contaminants 
are, and you are able to trace some effects, that we set up a 
treatment modality also. I always hear about the testing, but I 
don't hear about the followup. And so I would suggest that in 
the District of Columbia, that your concerns--and I want to 
compliment the Mayor, but I think your concerns ought to be out 
there, and there ought to be recommendations to other 
departments, and please identify what you see as a treatment 
modality for those who have been exposed.
    Dr. Walks. If you'll permit me just to expand on one thing 
that I'm confident, that you were alluding to.
    Ms. Watson. Please.
    Dr. Walks. This goes beyond letting people know if they 
have been exposed to a chemical that may burn their skin or 
injure their lungs or may cause cancer. There is a 
psychological component which is absolutely included in a 
comprehensive health approach to people who feel that their 
community is not safe, their home is not safe, their children 
can't play outside in the yard. And we are absolutely focusing 
on that as well, and I want to thank you for bringing up that 
comprehensive approach, because with the District's Department 
of Health, we have moved out of our offices. We are out in the 
community. We have taken experts to the community to answer 
questions for individuals. We will continue to do so and I 
appreciate your support in that effort.
    Ms. Watson. Thank you.
    Mrs. Morella. Thank you, Ms. Watson.
    I'd like to ask Dr. Walker, as chair of the Mayor's 
Scientific Panel on Spring Valley, I'd like to ask you what the 
status is of each of the recommendations that the scientific 
panel made. I do not notice any timeframes, but I trust from 
what we know and what we have learned that there is urgency in 
implementing the recommendations.
    Mr. Walker. Thank you, Madam Chairwoman. The recommendation 
for biomonitoring--the District of Columbia government has 
contacted the Federal Agency for Toxic Substance and Disease 
Registry, because this is the agency that is capable of 
providing the necessary support to do that; so that is 
underway.
    The District of Columbia government, on our recommendation 
to select another control population that is not so close to 
Spring Valley, they have now--the government has now contacted 
the State of Maryland to ask their assistance in identifying a 
community in the State of Maryland that may be of similar 
socioeconomic status that they can use as a control population. 
It's our understanding that the risks--I'm sorry.
    Mrs. Morella. Just any time line on that, on identifying 
that Maryland community that has some similarities, but again I 
hope would not be so close that it would be identical----
    Mr. Walker. That process is well underway, and I've had a 
verbal report that the data are beginning to come back from the 
State of Maryland. So that's well underway.
    Mrs. Morella. The other recommendations?
    Mr. Walker. The other recommendation was one that the Corps 
of Engineers began to look at specifying, identifying specific 
arsenic components, since arsenic is one of the compounds that 
has caused much concern, for obvious reasons. It does cause 
cancer.
    The Corps of Engineers is beginning to move to make some 
specific identifications with respect to that recommendation. I 
should point out that we did want to make sure that the agency, 
the three agencies, District of Columbia government, Corps of 
Engineers, and EPA, worked with the community to help the 
community understand this whole problem.
    We know that there was concern there about reproductive and 
developmental problems, but as we looked at epidemiological 
literature, there is no evidence to suggest that arsenic may 
cause any productive effects. So we believe that these three 
agencies should help the community understand what we know 
about the health effects of the various contaminants and it's 
our belief that is underway.
    We have not scheduled a second meeting, another meeting of 
the Scientific Advisory Panel, because we wanted to have the 
Corps of Engineers soil sampling results before we called a 
second meeting. Some members of our panel are from out of town, 
and we're trying to make sure we make maximum use of their 
time. So if we ask them to come back for a second meeting, we'd 
like to have as much data as possible. So I think it's fair to 
say that progress is being made on our recommendations. We have 
not had a formal report that says we are doing X, Y and Z on 
these recommendations, but I understand from the District 
officials that report will be forthcoming to our panel.
    Mrs. Morella. We'd be very interested in seeing that, and 
I'm just trying to promote the sense of urgency, and sometimes 
when we set time lines we tend to follow them a bit more 
closely.
    I would like to ask the District of Columbia officials as 
well as the community to agree to work with this subcommittee 
as we move along and am hoping that you would respond promptly 
to any of our inquiries and keep us informed of what's going 
on, knowing of our interest.
    I know that you'd love to make a comment, Mr. Harrop, and 
I'd like to recognize you.
    Mr. Harrop. Thank you, Madam Chairman. I want to say that 
I'm disappointed that, as I said earlier, one of the major 
problems in Spring Valley is a lack of uncertainty, a feeling 
that people have. They don't have the information, they don't 
know how badly they or their families may have been affected by 
these chemicals.
    I thought that Mrs. Norton's question about when we're 
going to get on with the health studies was really not very 
satisfactorily answered. The answer was that it's a very 
complicated problem; that there seems to be an argument among 
the Army and the Agency for Toxic Study and Disease Registry 
and the District as to who's going to pay for it.
    I simply cannot accept that it's difficult to locate, say, 
in Montgomery County, in your constituency, a community which 
is very similar to Spring Valley. This is a small community. 
It's not a very difficult problem. What people would like to 
know is that a study is going on. I mean, we've asked Maryland 
for suggestions as to a comparable community. I just don't 
think that's a very good answer. I think there's no reason why 
a study can't go on very expeditiously and satisfy people as to 
what the incidence of the problem is. I hope we can do that.
    Mrs. Morella. I appreciate very much your representing the 
urgency of it. And that's one of the objectives of this 
subcommittee is to move it forward, to get the time lines to 
make sure that we do have the study done as quickly as 
possible.
    Yes, Dr. Walks.
    Dr. Walks. If I may, Madam Chairperson, we have worked very 
closely with the State of Maryland. Georges Benjamin, who is my 
counterpart for the State of Maryland, has been extremely 
supportive. We have identified a community in Potomac, MD to 
use as a control community. That study has in fact been 
completed, and we will be turning those results over to the 
advisory panel Dr. Walker chairs so they can review that at 
their next meeting.
    So things are underway. Things are moving. I am never going 
to be satisfied that they're moving fast enough. I'm sure you 
will not be either. We will move with as much deliberate speed 
as we can, and every opportunity to increase that speed, we 
will ask you to support us and be happy to work closely with 
you.
    Mrs. Morella. We want to very much. And, Dr. Walker, when 
is the next meeting.
    Mr. Walker. I'm sorry?
    Mrs. Morella. When is the next meeting of----
    Mr. Walker. We would hope that we could convene the next 
meeting in September, early September, after the summer 
vacation, bearing in mind that we have some academic types on 
our panel and some are off in foreign countries doing some 
work. But we would hope by the first of September we would at 
least have some of the results of the Corps of Engineers' soil 
sampling, as well as a report of the District of Columbia 
government, so we can determine what are the next steps, and 
whether or not what has been done is sufficient to provide the 
information to draw some conclusions about the health and 
environmental effects----
    Mrs. Morella. If the members of the subcommittee would 
indulge me just one moment, I would like to ask maybe Mr. 
Gordon and Dr. Albright, we have this aerial map here; I 
wondered if you might just point out to us what some of those 
sites are, where there are the munitions and where there is the 
danger of contamination.
    Mr. Gordon. Madam Chairperson, I'd also like to point out 
that we have received a letter from Dr. Henry Faulk, the 
Assistant Surgeon General with the Agency for Toxic Substance 
Disease Registry, committed to continue biomonitoring of the 
residents of Spring Valley and working with the District of 
Columbia Department of Health. That letter is dated July 21, 
2001.
    Mrs. Morella. Excellent. Good. They don't know whether they 
can dig, whether they can go into the yard, what's safe and 
what is not. Thank you.
    Yes, sir.
    Dr. Albright. Madam Chair, Delegate Norton, my name is 
Richard Albright. I'm the District's remedial project manager 
for this site. I have counterparts from the Army Corps of 
Engineers and EPA, also called remedial project managers.
    This is a 1918 aerial photograph, taken on August 17 of 
that year, showing the site. The first thing I'd like to call 
to your attention is the great number of buildings. This was 
the world's second largest chemical weapons facility at that 
time. It had 1,200 scientists and engineers, 700 support 
personnel; and the adjacent site, Camp Leach, which I will 
indicate here, trained 100,000 engineers during the 2 years it 
operated, during the 2 years of World War I.
    Some key features--the main labs, were located in this area 
on the American University campus. One of the key features that 
was found in 1986 was this probable pit here. We believe this 
is the hole called Hades, although we can't definitively prove 
that, but we're still searching for this particular pit.
    There are also two sets of circles up here. These are 
circular trenches. They were meant to simulate the trench 
warfare in Europe. They were built in a circle so that when 
they detonated a shell with gas, it wouldn't matter which way 
the wind was blowing, it would get to the trench. That's why 
they're in a circular fashion. They would detonate from 1 to 24 
shells at a time. They would stake dogs out in the trenches at 
10 foot intervals and then see the effects on the animals of 
the poison gas. There is a smoke test going on as we speak. 
That was a major offensive that was planned for the Spring of 
1919. We were going to burn 4 million smoke candles. We had the 
prevailing wind to our backs across the trench in Europe, and 
the theory was this smoke would blow into the enemy's 
positions. It would penetrate the----
    Mrs. Morella. Where is that located? I mean, tell me 
where--I see that, but tell me where--give me more of a 
graphic----
    Dr. Albright. Between 52nd Street and Dalecarlia Parkway, 
approximately. We know exactly where it is. We have a map of 
the area that has that site specifically located. But that 
smoke contained arsenic, most likely, because of the spring 
offensive that was planned. The major smoke testing that was 
done was done at the Montgomery County Country Club, and the 
big site was in Berlin, MD.
    Perhaps a large number of those smoke candles were buried 
there in Maryland. The little knob off on the northern trenches 
is where the original 141 munitions were found back in 1993 by 
a contractor, employee of Miller Co., putting in, I believe, a 
water main to a new house that was under construction at that 
time.
    Mrs. Morella. Mr. Miller, did you know about anything 
before 1993 about any exposures from munitions?
    Mr. Miller. [Indicating no.]
    Dr. Albright. OK. Great. Thank you. Continue.
    Dr. Albright. This is the Sedgewick trenches down here. 
This is an area where we're looking very intently for a similar 
burial site of munitions. We think we have now located a 
probable location for that.
    A few other features. You see these little squares? These 
are persistency test areas where chemical warfare material was 
sprayed on the ground to see how long it would last. Generally 
from aerial photographs, light colored areas denote disturbed 
ground. It might just be an area where cars travel. Or it might 
be an area where somebody dug something to bury something, or 
it might be an area of contamination that prevents the grass 
from growing again, as in these persistency test areas. The 
person who probably prepared this for your committee is 
probably one of the top people in the world, Terry Slonecker of 
the EPA. He's been working with us for the last year or so----
    Mrs. Morella. Thank you.
    Dr. Albright [continuing]. Putting in an inordinate amount 
of time to try to identify various areas.
    Mrs. Morella. Thank you, Dr. Albright. That gives us a 
pretty good idea of the contaminated areas.
    Ms. Norton.
    Ms. Norton. Thank you, Madam Chair. I see a problem here 
that I think we're going to have to get ahold of. When it comes 
to the cleanup, I want to make sure that nothing interferes 
with the cleanup and the remediation itself. So that is done by 
the Federal Government; it would be very hard for the Federal 
Government to side step that. You know, they did it. They have 
to clean it up. And they can't look to the D.C. government, 
they can't look to Mr. Miller. They know they did it. Only they 
have the expertise and they're doing it. OK.
    Ergo, let's then look at a problem for which the Federal 
Government is equally responsible: the health effects on the 
community. Now, there, even though the arrow points in exactly 
the same place it did when it came to the contamination, there 
we do not have the same focus as we had, because it's just one 
step removed. It's in the population. You don't know where it 
is. And, therefore, we do not have the same Federal focus on 
the people as we have on the sites. That is dangerous. What we 
do instead is we leave it to the D.C. government to catch as 
catch can, get grants, seek technical assistance, but depend 
mostly on its own resources to deal with that health track of 
this problem.
    One thing this hearing has revealed to me is that the 
Federal Government has accepted its responsibility on one track 
and not entirely accepted its responsibility on the other 
track. That concerns me. And I believe we have an obligation 
not to simply look to the Department of Health and say what are 
you doing now and have them scramble among the agencies to do 
what needs to be done on the health effects for which the 
Federal Government is equally and exclusively responsible, 
while the Federal Government, having been unable to move away 
from the contamination itself, shucks and jibes on the health 
effects.
    I am very grateful to what the HHS has done to the ASTDR 
because they have been very forthcoming in that regard. We will 
hear testimony from the CDC. I am certainly going to be meeting 
after this hearing with the agencies involved, because I think 
that without a single appropriation from the Congress, that 
there is an existing obligation, once the Federal Government 
has accepted responsibility for the contamination, to accept 
responsibility for the health effect. I mean, it follows like 
night and day, and we just have to make sure that the logic is 
understood.
    As to the health--what the city is doing now to try to 
scramble to get the personnel and to get the money, my own 
sense is that we simply must do it fast, do the health survey 
fast, and make sure that it is done independently. And we may 
not be able to wait until the District is able to hire all of 
the independent experts it should. And what I'd like the 
District to help me do is to figure out what is the fastest way 
to get an independent health survey initiated immediately.
    Now, I have a question for the District. Mrs. Morella asked 
about other communities that may have been involved, and we 
have heard about other communities, and I indicated in my 
opening statement that I did not believe that the Federal 
Government went like a laser beam to American University and 
might not have done damage elsewhere.
    In your testimony we heard that at least there is some 
reason to look at at least three other areas: Camp Simms, some 
areas near UDC that were vaguely named, and areas near Catholic 
University. Now, there is no need to unduly panic any other 
community, and one of the ways to keep from panicking a 
community is to systematically look at what has happened so 
that people know that there's no reason to be panicked.
    I would like you to describe what is being done now, 
exactly what is the nature of the effort now at Camp Simms in 
which you're about to do a whole big number, a whole big 
project that's been outstanding for years--Camp Simms, the area 
near UDC, and Catholic University--what is being done and who 
is doing it?
    Mr. Gordon. Go ahead, Richard.
    Dr. Albright. I'll respond to that. Camp Simms, first of 
all, we got in that site when the Federal parkland was being 
remediated. We had a partnering effort with the Corps and the 
EPA. I believe we successfully remediated the Federal park 
there called Oxen Run Park. We removed 36 ordnance items out of 
that site. That was the target area.
    Ms. Norton. When was that done? When were those ordnances 
removed?
    Dr. Albright. From 1995 on. In fact, the first week I came 
to work on this project I was out there. We removed substantial 
quantities of lead from the backstop areas for the small arms 
ranges out there; and areas that we could not remove the lead, 
we covered up in such a way that children can no longer be 
exposed.
    The other portion at Camp Simms is owned by the District of 
Columbia government. There are some reported burials there. 
That work was done before the District was involved with the 
project. We were not satisfied with the work that was done. 
We've gotten back to the Corps of Engineers on that. We have a 
good partnering relationship with them. In the past 2 months 
they have reanalyzed the data from the metal detectors that 
were used over that area. We have located and come to agreement 
on 13 more potential areas of munition burials up there, and 
talks are underway now as to try to excavate those areas.
    With respect to UDC, that was formerly the Harry Diamond 
Fuse Laboratory where, among other things, our proximity fuse, 
which was very effective in World War II, was developed. We 
know that there were many contaminants up in that area, and 
ordnance was found up there when they built the engineering 
building at UDC. We are going to be looking at that site. EPA 
has promised to fund the preliminary assessment for that site. 
I believe that preliminary assessment has already been done in 
draft form. We have not seen it yet. We expect it within a week 
or two. From that document, we will then go on to do whatever 
soil sampling magnetometer work, metal detector work is 
necessary.
    Catholic University was a small research spin-offsite from 
American University. Two very toxic chemical warfare agents 
were developed there, lewisite and ricin. They had 
approximately 35 chemists working there. From their reports we 
suspected that there may be some contaminants left. 
Anecdotally, we've been told that jugs of chemical warfare 
material were left in the chemistry building when the site was 
closed. These were found some number of years later. They were 
then buried near the chemistry building up there. A number of 
years later again, putting a walkway through, they hit one of 
the jugs with a pick-ax while digging a foundation.
    We have been unable to get any more information on that 
site. But there's a dump site already near there. We have 
already done some preliminary aerial photo recon work on that 
site, and we'll be looking to take some soil samples in that 
area as well.
    Ms. Norton. Are these all the areas that could conceivably 
have had munitions dumped?
    Dr. Albright. Yes. We have approximately 33 sites in the 
District of Columbia that we're looking at. According to the 
Department of Defense, the District of Columbia ranks 10th 
among all States for potential buried ordnance sites, not 
necessarily in any way the amount of ordnance, but rather just 
purely numbers of sites. Our site might be 30 rounds. Some 
other State's site may be 3,000 rounds, but in numbers of sites 
we rank 10th among all States.
    Ms. Norton. I think the Chair also asked about water. I do 
know that over and over again, we're told that the District of 
Columbia has one of the highest cancer rates in the country. It 
always ranks way above anything anyone would expect. Could you 
tell me, I want to know first what is being done, specifically 
what is being done--we were told something was being done--to 
look at the water supply and whether you think so many areas 
where buried munitions are located might have contributed to a 
higher rate of cancer in the District of Columbia that we see 
here than in other places.
    Dr. Walks. I think we absolutely have those concerns in a 
State that is 70 square miles and ranks 10th in States with 
respect to number of sites. That means we have probably a lot 
more sites per square mile than maybe any other place. We do 
have a high cancer rate. We have a cancer registry. That's a 
tremendous step in the right direction with respect to our 
ability to track it.
    But as a physician, you don't want to track cancer. It 
means that you're waiting until people are ill and then 
identifying a level of illness.
    We want to protect health. The Mayor's goal is to make the 
District the healthiest city in America. We share that mission, 
we share that vision. And the extent of the work that Dr. 
Albright has outlined is, I think, evidence of that. We do have 
to stretch our resources, but that's OK. We will stretch and do 
whatever we can to identify potential health hazards in the 
District and mitigate those health hazards. Part of our purpose 
today is to impress upon you that commitment and ask for your 
support with respect to additional resources, but we----
    Ms. Norton. Dr. Walks, what is being done on the water 
supply right now with respect to effects of these munitions 
around the District of Columbia?
    Dr. Walks. We actually do check groundwater, and we check 
groundwater contamination in a lot of different areas for a lot 
of different chemicals. Though we don't use groundwater, we're 
exposed to it and we're exposed to soil. That's why when we 
talk about collecting samples, we talk about comprehensive 
sampling collection, doing split samples. We can't afford to 
trust other people to do the work that we have to do in the 
District to keep District residents safe. It's our 
responsibility, and we want the ability and the resources to do 
those split samples and be able to look District residents in 
the eye and tell them that they're safe in their homes.
    Ms. Norton. Dr. Gordon.
    Mr. Gordon. Yes. As Dr. Walks has indicated, we have no 
evidence, based on the review of drinking water data, that 
there's any contamination levels of our drinking water with 
arsenic, none whatsoever.
    We have requested that the Corps of Engineers do 
groundwater testing for us to determine if there are 
concentrations of arsenic in our groundwater. One would say, 
why do you want to test the groundwater, because we don't drink 
the groundwater? We never know at what point in time we're 
going to have to access that groundwater. If we had a 
bioterrorist attack and it affected our drinking water system, 
we may have to rely on our groundwater.
    So, therefore, we've requested to the Baltimore District 
that in the Spring Valley area we test the groundwater to 
determine if in fact it is contaminated, and we're waiting for 
a response from the Corps. But there is no evidence--and I want 
to repeat, no evidence--whatsoever of our drinking water being 
contaminated with arsenic.
    Ms. Norton. It's very important for the community to 
understand that.
    Mr. Miller, could I ask you whether or not this very 
desirable neighborhood, as you called it, with very high 
property values, meaning you pay a lot of taxes to the District 
of Columbia and to the Federal Government--may I ask whether or 
not property values have been affected by this controversy?
    Mr. Miller. Based on the real estate data that I've been 
able to collect from the Multiple Regional Information System, 
which is the warehouse of real estate sales in Spring Valley, 
the answer is no. Property values have gone up, and gone up 
significantly in the last 5 years.
    Ms. Norton. That's very good news.
    Finally, Mr. Harrop, you made a statement that I wish you 
would explain when you were assessing this controversy. You 
indicated that American University may have been complicit 
along with the Federal agencies. I note that American 
University has sued, which doesn't tell us all we need to know, 
of course. But what made you think that American University has 
been--may have been, sorry--complicit?
    Mr. Harrop. Well, under the Superfund legislation, the 
owners or operators of property which may have possible 
contamination are required to report that formally to EPA, 
which triggers an articulated series of remedial actions.
    In 1986, the American University as well as the Army Corps 
of Engineers clearly knew that, because they had information 
from their historical survey of the records and their review of 
overhead photography which showed that there was this potential 
problem.
    And yet they decided not to report it--as the law required 
them to--to the EPA. That is what I meant by complicit.
    Ms. Norton. Thank you, Madam Chair.
    Mrs. Morella. I want to thank the panel. We've kept you for 
a long time. You have been great in terms of telling us about 
the actions. I reiterate that we do want to work with you so 
that we recognize the urgency and come about with some resolve 
for the safety and security of the citizenry. And so we thank 
you. Thank you very much for being with us, Dr. Walks, Mr. 
Gordon, Dr. Albright, Dr. Walker, Ms. Shapley, Mr. Harrop, and 
Mr. Miller. Thank you.
    So, now the second panel. We will not spend quite as much 
time with the second panel. We have two people who will be 
presenting: Thomas Voltaggio, the Acting Regional 
Administrator, the Environmental Protection Agency, Region III; 
and Rear Admiral Robert Williams, Director of the Division of 
Health Assessment and Consultation, the Agency for Toxic 
Substances/Disease Registry.
    Before you sit down, I'm going to have you stand to be 
sworn in. Mr. Voltaggio and Admiral Williams, if you'll raise 
your right hands.
    [Witnesses sworn.]
    Mrs. Morella. Thank you for your affirmative responses. 
We'll now commence.
    Well, Admiral Williams, since you are sitting to my left, 
the right of the audience, would you like to begin, then?

STATEMENTS OF REAR ADMIRAL ROBERT WILLIAMS, DIRECTOR, DIVISION 
    OF HEALTH ASSESSMENT AND CONSULTATION, AGENCY FOR TOXIC 
   SUBSTANCES AND DISEASE REGISTRY; AND THOMAS C. VOLTAGGIO, 
ACTING REGIONAL ADMINISTRATOR, ENVIRONMENTAL PROTECTION AGENCY 
                           REGION III

    Admiral Williams. Thank you. Good morning, Madam Chairwoman 
and members of the subcommittee, I am Bob Williams, the Agency 
for Toxic Substances and Disease Registry, and I thank you for 
this opportunity to provide you with testimony on the 
activities of the Agency for Toxic Substances and Disease 
Registry [ATSDR], at the Child Development Center at the 
American University, a day care facility.
    ATSDR is an agency of the U.S. Department of Health and 
Human Services. It is the lead public health agency responsible 
for implementing the health-related provisions of the 
Comprehensive Environmental Response, Compensation, and 
Liability Act [CERCLA]. ATSDR's mission is to prevent exposure 
and adverse health effects and diminished quality of life 
associated with exposure to hazardous substances from waste 
sites, unplanned releases, and other sources of pollution 
present in the environment.
    On January 18, 2001, ATSDR participated in a conference 
call with the U.S. Environmental Protection Agency, the U.S. 
Army, and the District of Columbia Department of Health. The 
Army indicated that elevated concentrations of arsenic were 
detected in surface soil samples recently collected from the 
playground of the Child Development Center at American 
University, which I will call AU-CDC. Parents of children 
attending the day care facility were notified of this finding, 
and they expressed concern for the health of their children. 
The Department of Health asked ATSDR for assistance in 
addressing the parents' concerns.
    ATSDR reviewed the request as we would a proposal for the 
Agency to conduct an exposure investigation. An exposure 
investigation is one approach that the Agency uses to better 
characterize potential exposures to hazardous substances, 
generally through biomedical testing. The request was evaluated 
against ATSDR's criteria for conducting an EI, which include 
the following: One, can an exposure population be identified?
    Two, does a data gap exist that affects the ability to 
interpret whether or not a health hazard exists?
    Three, can the data gap be addressed by an EI?
    And, four, how would the results of an EI impact public 
health decisionmaking.
    ATSDR determined that the request met the Agency's criteria 
for conducting an EI, and, accordingly, agreed to conduct an EI 
for the children currently attending AU-CDC. In addition, ATSDR 
agreed to include the adult staff at the AU-CDC in its EI.
    Officials at American University had relocated the AU-CDC 
to another location on campus as soon as the contamination was 
brought to their attention. Therefore, children and AU-CDC 
staff had no known current exposure to arsenic at the time of 
the EI request. After a person is exposed to arsenic, the 
arsenic is rapidly metabolized and excreted in the urine within 
a few days. Because the children had no known recent exposure 
to arsenic, it would not be useful to test their urine samples 
for arsenic.
    Arsenic is deposited in the hair root as the hair grows. 
Therefore, measuring the arsenic concentration in a length of 
hair provides an indication of arsenic exposure over the life 
of the hair. ATSDR collected 2-inch lengths of hair from the EI 
participants, which corresponds to approximately 5 months' of 
hair growth.
    With the assistance of the Department of Health and AU-CDC 
staff, written informed-consent forms were signed by parents or 
guardians of the children. The children ranged from 2\1/2\ 
through 5\1/2\ years of age. About half of the children that 
attended AU-CDC for 7 months or less; the remainder had 
attended for a year or more.
    During January 31st through February 1, 2001, ATSDR staff 
collected hair samples from 28 children and 4 adults at the AU-
CDC. Approximately one-half gram of hair was cut from the back 
of the head, at the nape of the neck. These samples were sent 
to a clinical medical laboratory for analyses; results were 
available in March 2001. Of the hair samples tested, none were 
found to have elevated levels of arsenic.
    AU-CDC staff and parents of children who participated in 
the EI were notified of the test results, and ATSDR staff were 
available to those participants at a March meeting. The ATSDR 
issued a written public report which summarized the findings of 
the EI.
    ATSDR has since been petitioned to conduct a public health 
assessment for the Spring Valley site, and we have also been 
requested by the government of the District of Columbia to 
assist them with an expansion of our previous exposure 
investigation. We are collecting information needed to respond 
appropriately to both of these requests.
    Madam Chairwoman, this concludes my testimony, and I would 
be happy to answer questions that you may have or those of your 
fellow subcommittee members.
    Mrs. Morella. Thank you, Admiral Williams.
    [The prepared statement of Admiral Williams follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.044
    
    [GRAPHIC] [TIFF OMITTED] T7354.045
    
    [GRAPHIC] [TIFF OMITTED] T7354.046
    
    [GRAPHIC] [TIFF OMITTED] T7354.047
    
    Mrs. Morella. Now, Mr. Voltaggio.
    Mr. Voltaggio. Good afternoon, Chairwoman Morella and 
members of the committee. I am Thomas Voltaggio. I am the 
Acting Regional Administrator for EPA's Mid-Atlantic Regional 
Office. I'm pleased to be here today to discuss EPA's role in 
the Spring Valley cleanup.
    EPA's active involvement with Spring Valley started when 
Region III, in conjunction with the Army, conducted an 
emergency response to Spring Valley in 1993. Since then, the 
Agency has provided critical skills and technical expertise in 
what is an extraordinarily complex cleanup effort. The Agency 
has decided to test for a full suite of possible contaminants, 
and this decision helped in eventually uncovering the arsenic 
problem. Our efforts to promote keeping the site open for 
further investigation and gathering the right data for an 
accurate risk assessment have also been important factors in 
the cleanup effort.
    In January 1993, a utility contractor working in the Spring 
Valley development encountered buried ordnance. A textbook 
emergency response followed, with the Army, EPA, and the 
District government responding. DOD sent an emergency response 
team that removed 141 ordnance-related items in what became 
known as the phase I cleanup. The Corps was ready a month later 
to start a phase II longer-term cleanup effort.
    Arsenic is a breakdown product from some of the chemical 
weapons that were used at American University. The Corps did 
not sample for arsenic, however, because there are other unique 
compounds that would provide a clearer indication of warfare 
agents. EPA, however, decided to test for all hazardous 
substances, including arsenic. It wasn't until much later in 
the history of Spring Valley that this decision would prove 
important.
    By 1995, hundreds of properties have been investigated, but 
only a few more ordnance pieces were found, and there have been 
no discovery of burial pits. More than 250 soil samples have 
been tested, but no chemical or explosive agents were found. A 
few metals were identified, but a risk assessment concluded 
that additional cleanup was not required.
    An investigation of suspected mustard gas in the soil was 
still underway at what was called the ``Captain Rankin'' 
property. The Corps proposed that all the other locations in 
Spring Valley be considered as Operable Unit 1, and that the 
Captain Rankin area be classified as Operable Unit 2. The Army 
then concluded that no further action was required with respect 
to chemical warfare materials or munitions for Operable Unit 1. 
The Corps documented this rationale and put it out for public 
comment. Both EPA and the District supported this decision.
    As the work on Operable Unit 2 continued, that is, the 
Captain Rankin property, D.C. government undertook an 
independent archival search that turned up new information, 
including a possible mislocation of a burial pit. In the spring 
of 1997, the Corps, EPA and D.C. agreed to form a Spring Valley 
project team, and EPA wrote to the Corps, noting that closeout 
of the entire Spring Valley site should be deferred until 
resolution of the concerns raised by the District of Columbia.
    By January 1998, the Corps became convinced that D.C. was 
correct about the location of the possible burial pit. It 
created, then, an Operable Unit 3 to focus on the Korean 
ambassador's residence, including a soil sampling plan. At the 
same time, the EPA prepared a plan to sample and resample 
adjacent properties.
    Several different strands of the story were finally 
starting to converge. Using D.C.'s information, the team found 
the burial pit on the Ambassador's property, and an intensive 
and gradually expanding circle of soil sampling was finding 
arsenic and leading to the eventual decision to assess every 
property in Spring Valley.
    As part of the massive sampling and resampling efforts that 
currently are underway at 1,200 locations, every homeowner will 
be mailed a copy of the results from his or her property within 
45 days of the sample being taken.
    EPA's original photographic interpretation work is still 
helping to guide our work today. I would also like to 
acknowledge the work of other organizations that have been 
involved in the cleanup effort.
    From the time that I arrived at the site in 1993--and I 
arrived there on January 6th, the day after the ordnance was 
found--I have been extremely impressed by the hard work and 
dedication of the Corps in the Spring Valley cleanup. They have 
provided a high level of expertise to this effort. The District 
of Columbia also deserves special praise. The research 
conducted by some of its staff in 1995 and 1996 has given other 
team members extremely valuable information.
    Thank you for the opportunity to testify. I'll be happy to 
answer any questions at the appropriate time.
    [The prepared statement of Mr. Voltaggio follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.048
    
    [GRAPHIC] [TIFF OMITTED] T7354.049
    
    Mrs. Morella. Thank you very much, Mr. Voltaggio. I'll 
start off with you and ask you a question that probably is a 
simple one for you, but I think important to our discussion. 
And that is what is a Superfund site, in your definition, and 
why isn't Spring Valley classified as one?
    Mr. Voltaggio. A Superfund site--and I have some background 
in this in my--for 17 out of the last 20 years, I was director 
of the region Superfund program and had responsibility for all 
the cleanup projects in our 6-state--5-state plus the District 
region.
    A Superfund site is any site that is contaminated with 
hazardous substances that rises to the level of contamination 
that necessitates Federal cleanup to be done; Federal 
identification, assessment, and remediation to occur.
    There are various types of Superfund sites. It's not just 
one type of thing. There are immediate cleanup sites, immediate 
removals, where the levels are so high that one can't wait; one 
has to do the remediation right away. There are other sites 
where they are more widespread or lower level of contamination, 
where sufficient time can be had to do an appropriate study to 
determine the true degree and extent of the contamination. 
These are remedial Superfund sites.
    Superfund also provides different responsibilities to 
different people to do things. It provides responsibility and 
authority to EPA to do cleanup sites for most of the sites that 
are found in the country. It also provides that it's the 
responsibility of the Department of Defense to clean up sites 
that it caused the contamination for, the theory being that if 
the U.S. Government caused the contamination, it didn't want to 
use tax money to provide the cleanup. That was funded by, for 
instance, the chemical industry.
    So there are lots of different facets of the answer, and I 
hope I've been able to answer at least what is a Superfund 
site. And I forgot the second part of your question; I'm sorry.
    Mrs. Morella. Why doesn't Spring Valley----
    Mr. Voltaggio. Spring Valley----
    Mrs. Morella [continuing]. Qualify?
    Mr. Voltaggio. Spring Valley is a----
    Mrs. Morella. It is a Superfund site?
    Mr. Voltaggio [continuing]. Superfund site. The responses 
are undertaken pursuant to the CERCLA law, the Comprehensive 
Environmental Response, Compensation, and Liability Act, called 
Superfund. And it does assign a number of responsibilities to 
the President. The President then delegates that responsibility 
to either the EPA or, in this case the Army, or the Army and 
EPA, depending upon the nature of how the contamination was 
found there. So it is Superfund, and it is currently the 
responsibility of the Army to perform the cleanup work, but it 
must maintain consultation with the EPA to be sure that the 
environmental consequences are appropriately looked at and 
considered properly.
    Mrs. Morella. Is that happening?
    Mr. Voltaggio. Yes. It definitely is. Ma'am, I said I 
started on the site in 1993 as director of the hazardous waste 
cleanup program, and I've been involved in it ever since, and 
I've had many, many, many areas of involvement, as well as with 
my staff, to be sure that we are comfortable with the cleanup 
that is underway.
    Mrs. Morella. I'll get back to you for other questions. But 
let me ask, Admiral Williams, when you talk about the Child 
Development Center and the testing that is done with the hair, 
explain to me how that happens. What if the hair grows out? 
Does this mean that there is no more arsenic problem?
    Admiral Williams. Well, that is an important consideration: 
When was the last time the hair was cut, and how much of the 
hair was available? In this case, we were able to obtain enough 
hair samples from each of the students and the adults. The 
sample was taken closest to the scalp. Usually when you get a 
haircut, it is a little bit farther out. The concentration of 
arsenic in the hair root is in equalibrium with the arsenic in 
the blood stream. So we believe we would see it, as the hair 
grows out.
    Mrs. Morella. But it means if you use that kind of testing, 
you can only use it for a certain period of time.
    Admiral Williams. Yes, ma'am.
    Mrs. Morella. No duration would be adequate or appropriate.
    Admiral Williams. That is correct, ma'am. Usually a period 
of anywhere from 2 to 12 months is about all that hair analysis 
could be used for.
    Mrs. Morella. So how would you do the appraisal or the 
assessment of the adults that work there over a long period of 
time?
    Admiral Williams. Well, we----
    Mrs. Morella. They would have to still be working there?
    Admiral Williams. Yes, ma'am. We were looking for 
indications of exposure, and basically what it tells you is 
that there was no current exposure, or within a relatively 
short period of time. It doesn't tell you whether or not people 
have been exposed in the past.
    Mrs. Morella. Uh-huh. I'm going to defer now to the ranking 
member and get back to you.
    Ms. Norton. Thank you very much, Madam Chair. Mr. 
Voltaggio, why did the EPA not reveal the results of their 
photographic analysis in 1986?
    Mr. Voltaggio. Well, I can tell you the history of our 
involvement at that site at that time. On April 24, 1986, 
American University wrote to EPA about a possible problem of 
World-War-I-era buried chemical munitions. The letter noted 
that the Army was investigating the matter. After confirming 
that the Army was engaged, EPA wrote back to AU, indicating 
that the Department of Defense was responsible for the cleanup 
of munitions and that further inquiries should be directed to 
them. It is a letter of 1986 from EPA back to American 
University.
    At the same time in 1986, the Army had contracted with 
EPA's Environmental Photographic Interpretations Center, called 
EPIC. These are the people that made that drawing. EPIC serves 
as a governmentwide expert on photo interpretation. The report 
of July 1986 to the Army noted that significant features 
identified include shell pits, trenches, possible test area, 
possible burial pits. The Region's referral to the Army that I 
discussed, and the Army's contract with EPIC, were the extent 
of EPA's involvement at Spring Valley in 1986. So it was a 
contractual relationship between the Army and our photographic 
lab, who does governmentwide contracting for its services to do 
this very specific type of photo interpretation. Other offices 
of EPA were not given that report and had no knowledge of it.
    Ms. Norton. Mr. Voltaggio, have you ever heard of the 
Nuremberg trials?
    Mr. Voltaggio. Yes, I have, ma'am.
    Ms. Norton. I don't know if EPA regarded itself as, quote, 
following orders, but your answer terrifies me because it seems 
to say that if EPA knows something that the world should know, 
it is going to act as if it were a private contractor. And rely 
exclusively upon a peer agency to reveal information that the 
EPA, and only the EPA, found.
    Can we trust the EPA, then--well, let me ask you this. Is 
that your continuing view that if--are you still contracting 
with agencies?
    Mr. Voltaggio. EPIC, I believe so, yes.
    Ms. Norton. Is that the continuing policy of the EPA, that 
the matter is secret unless the Agency reveals contamination or 
other matter?
    Mr. Voltaggio. No, it is not----
    Ms. Norton. What is the policy of EPA today?
    Mr. Voltaggio. We are governed by the Freedom of 
Information Act, just like all the other Federal agencies are.
    Ms. Norton. Well, that means if somebody finds out enough 
to ask a question, a FOIA can be put in. I want to know if you 
discover that there is harm done to American citizens or others 
in this country, whether EPA has an obligation, if the Agency 
does not reveal it, to reveal it to the appropriate parties?
    Mr. Voltaggio. EPIC did not make conclusions as to whether 
or not there was any health risk from what it found. It simply 
interpreted photographs and provided that interpretation to the 
person who contracted with them.
    Absolutely, Congresswoman, if we have indication to 
indicate that there is a health impact or environmental 
contamination from any source, it is the Agency's obligation 
and responsibility and total intention to be sure that the 
people who are impacted know about that.
    Ms. Norton. So you say that EPIC, when it made those 
photographs, had no knowledge of what those photographs meant?
    Mr. Voltaggio. No. They simply interpreted what type of 
disturbances they found in those photographs, and indicated 
what it believes could be reasons for the disturbances that it 
finds.
    Ms. Norton. When did EPA have reason to believe that there 
was contamination in Spring Valley? When did you first have 
reason to believe that?
    Mr. Voltaggio. January 5, 1993, when the utility contractor 
found the shell, and we were called in in an emergency 
response.
    Ms. Norton. Did EPA have any reason to believe, dating as 
far back as 1986, that any information that dates from 1986 
might have informed it of contamination in Spring Valley?
    Mr. Voltaggio. We were contacted by a representative from 
American University, who indicated that they believed there 
might be buried munitions at that location and notified us of 
that. We responded to that individual and told him that under 
the responsibilities for cleanup of munitions, that the Army 
was the authority who would deal with that information and who 
should be properly contacted, and, in fact we subsequently 
found out, was. And we directed that response back to the Army, 
saying any problem that occurred from munitions in Spring 
Valley would be the responsibility of the Army, and we informed 
them so they could contact the appropriate person.
    Ms. Norton. Did you kind of put 2 and 2 together with the 
86 aerial photographs which you had----
    Mr. Voltaggio. No, ma'am--well, the Agency had, ma'am. The 
person who received the letter from American University was a 
regional administrator of EPA in Philadelphia, and that person 
did in fact respond to the letter, saying that anything that is 
occurring with regard to munitions that could be causing an 
environmental problem, should be directed to the Army. EPA's 
EPIC laboratory in Virginia was the one who was separately 
contracting with the Army, and that went on without the 
knowledge of EPA's regional administrator, since it was a 
contract job, which many others were, with EPIC at that time.
    Ms. Norton. Are you convinced that the cleanup going on in 
Spring Valley is state-of-the-art?
    Mr. Voltaggio. We don't have a competence with regard to 
evaluating that for finding buried munitions. I can comment, 
however, we do have a competence with regard to environmental 
contamination going on: the investigation for environmental 
contamination, such as arsenic. And I am convinced that it is a 
very thorough and competent and dedicated effort by the Corps 
of Engineers. I think you have to ask folks with experience 
with regard to finding munitions that question, because that is 
outside my area of competence.
    Ms. Norton. Admiral, first of all, I thank you for the way 
in which your Agency has been so forthcoming and helpful to the 
District of Columbia. You indicated that you had done--and I 
thank you for the very important exposure investigation that 
you have done of a limited population, the children of the day 
care center, the adults of the dare care center, apparently.
    Are there others in the community who should have such 
exposure investigations made available to them from a health 
point of view? I'm not talking about who does it now. I'm 
talking about others in the community, who live in the 
community or work in the community, who ought to also have 
exposure investigations done for them the way the children and 
the day care adults had.
    Admiral Williams. As was testified earlier today, we are 
using the results of the ongoing characterization of the 
properties to help make that decision. So the answer is, at 
this time it is unknown. But as we determine where 
contamination is located, look at what the potential for 
exposure to that contamination is, then we can determine what 
type of biomonitoring would be necessary.
    Ms. Norton. But, of course, there has been exposure near 
homes other than the day care center. There have been other 
sites where people live. Why are those who live in those homes 
or near those sites not proper subjects for exposure 
investigations?
    Admiral Williams. We are just beginning to look at the 
data. We have not received all the current round of sampling 
data, and that's why I can't answer about those particular 
homes. Should we find levels that are elevated and the 
potential for exposure exists, we would move toward some sort 
of the biomonitoring or further exposure characterization.
    Ms. Norton. Thank you very much. Who are you depending upon 
to give you the data you speak of?
    Admiral Williams. We're working with the District of 
Columbia Department of Health, and as they get the data, we 
will work with them on that.
    Ms. Norton. You have given the adults and the children in 
the day care community a clean bill of health for now, and we 
appreciate that was done quickly and that they had some of that 
anxiety removed from them.
    Is the exposure investigation you do limited only to short-
term--is the exposure you do limited only to immediate effects? 
Should these children, should these adults, have similar 
investigations and similar medical checkups done for them as 
time goes on; more so, for example, than they might if they 
lived in Virginia or if they lived in some other area of the 
district?
    Admiral Williams. The exposure investigations that we do 
look at current exposure; so, the immediate or current contact 
with contamination. For these children and for these adults, 
since we did not see elevated arsenic levels in their hair, we 
don't believe any additional followup is necessary other than 
the routine yearly checkup that children would have.
    Ms. Norton. That is indeed comforting.
    Mr. Voltaggio, you spoke of a textbook response when you 
were called in. I appreciate that EPA has been available now. I 
am concerned that you have had to behave like something on the 
order of an emergency squad. If you get sick, then you call an 
ambulance. When there has been the kind of exposure that has 
been documented here, would not EPA expect a systematic plan of 
the entire community to be forthcoming, without waiting for 
excavations that accidentally take place, for example, because 
people are building something or otherwise the matter is 
accidentally discovered in people's backyards?
    I mean, how would EPA suggest that the Army Corps of 
Engineers proceed, knowing that munitions were buried all 
around this community?
    Mr. Voltaggio. Well, any environmental contamination that 
would occur would be the result of exposure. And to determine 
what exposure exists, one has to find where the contamination 
is and where is the pathway for that exposure to get to folks, 
to get to the environment, to get to the public. And we rely on 
sampling efforts in order to do that.
    There are many thousands of sites, tens of thousands of 
potentially contaminated waste sites across the country. The 
Army has its own number of--I assume it's in the thousands of 
potential FUD sites, and it is looking at the worst sites first 
in a step-wise fashion, and determining what contamination is 
found that governs the action that needs to be taken.
    We don't want to attack sites on a first-come, first-served 
basis. We want to do them on the worst-sites-first basis. And 
what we found in 1993 was this was a bad site. So you know it 
was kind of an action.
    Ms. Norton. We've finally gotten to the point where 1,200 
homes need to be tested.
    Mr. Voltaggio. Correct.
    Ms. Norton. Now, is that a representative sample, or are 
those all homes that need to be----
    Mr. Voltaggio. Those are all the homes in the Spring Valley 
area. I might add that it is hugely atypical for a site that is 
660 acres to have every single residential property sampled. 
I'm not aware of any other site in the country, at least in our 
region which I'm responsible, where that has actually been 
done. So it is an extraordinary effort.
    Ms. Norton. But I mean it is the appropriate way to handle 
that, isn't it, given that we're talking about the second-worst 
site for these munitions in the United States of America?
    Mr. Voltaggio. Well, pretty much prior to 1996, 1997, the 
indications were that with the exception of the munitions that 
were found in the emergency response back in 1993, there wasn't 
much of anything else found.
    Ms. Norton. Well, let me just stop you right there. That's 
what bothers me, because it looks as though what EPA is saying 
and what the Army is saying is there was no way, once there had 
been accidental unearthings of these contaminants, to do the 
kind of sampling that would have gotten us to where you finally 
got when you have now decided that every home needs to be 
tested.
    Mr. Voltaggio. Congresswoman----
    Ms. Norton. Why couldn't that have been decided much 
earlier, so the community would have known you're going to get 
to all of us, and let's go about our business?
    Mr. Voltaggio. That is a fair question, Congresswoman. The 
fact is that up until roughly the late nineties, 1997, 1996, 
1997, 1998, this was a munitionsite and it was not an arsenic 
site. Arsenic wasn't indicated to be a problem until the late 
nineties. It was at that time, that because the potential for 
arsenic contamination to be more widespread based on the 
information we received from the District and what we received 
from the subsequent sampling by the Korean ambassador's 
residence that, it appeared to change in shape; it appeared to 
change in nature what was----
    Ms. Norton. That was a surprise, that it was arsenic? 
Munitions were not a surprise?
    Mr. Voltaggio. No.
    Ms. Norton. Arsenic, which is often part of munitions was a 
surprise?
    Mr. Voltaggio. Well, we didn't find arsenic in the roughly 
150 to 200 samples that were taken prior to 1997. There were 
only three samples that showed any level of arsenic background, 
and that for us led us to believe that this was a munitions 
site.
    Ms. Norton. But hasn't there been evidence that the Army 
Corps of Engineers weren't digging deep enough to find the 
arsenic, and if they had done a competent investigation, they 
would have found the arsenic earlier?
    Mr. Voltaggio. Having been there at the time, I can tell 
you, Congresswoman, that by far the biggest concern that people 
had in 1993--and I was on the ground there--was chemical agents 
and live rounds, and live rounds with chemical agents, and that 
was what took 98 percent of everyone's concern--and rightfully 
so.
    And then when they moved into the second phase, then, from 
the 1993 to 1994 to 1995 time period, when they did sampling, 
and EPA had split the samples with the Corps to determine all 
the hazardous constituents, not just the products of 
decomposition from the chemical warfare agents, and we didn't 
find anything out of the ordinary.
    Three out of roughly 200, 150 to 200 samples, showed 
arsenic and really not much of anything else. We assumed that 
this is what it was, and that is why we took the tack that we 
did. If it wasn't for the District coming to us in late 1996, 
early 1997, and said they had more information that they were 
able to find that indicated that one of those pits, one of 
those points of interest that the Army thought was looked at 
and sampled that didn't have a problem, was mislocated by 150 
feet. It was--and then when they sampled there, we opened up a 
new Operable Unit and sampled it. That is when we started 
finding the arsenic, and that is when arsenic became an issue, 
and that is when now it morphs from a munitions site to a 
chemical contaminationsite that we are expert in.
    And we then stepped a little more to the floor and advised 
the Corps a little more strongly with regard to what additional 
sampling would have to be done, and they stepped up and they 
did the sampling that we asked, as well as the District.
    Ms. Norton. I'm very disturbed that the District had to 
make that finding, because I'm aware of--particularly at the 
time--it was 1995, was it not?
    Mr. Voltaggio. Late 1996, early 1997. I myself met with 
D.C. In January 1997, where we talked about this.
    Ms. Norton. At that time, the District would have been 
engaged in a heroic effort, because that was at the bottom of 
the District's fiscal crisis when the city was insolvent.
    Mr. Voltaggio. It was a heroic effort. They found something 
that no one else found.
    Ms. Norton. And, of course, the expertise to find this is 
why we have a Federal Government. I don't know how the District 
was able to find it. I appreciate that EPA has quickly moved to 
take responsibility.
    And, Madam Chair, I will end my questioning here.
    Mrs. Morella. Thank you, Ms. Norton. I have a couple of 
questions I would like to pose. In terms of the testing, I 
think elevated levels were found at the AU athletic field. How 
many adults, workers, students, were tested? How many 
volunteered to be tested? How was that conducted? And what were 
the results?
    Admiral Williams. There were 28 children and 4 adults 
tested. We opened it up to any of the adults who wanted to be 
tested for----
    Mrs. Morella. This is the athletic field, not the Child 
Development----
    Admiral Williams. Oh, I'm sorry. I'm not aware of how that 
testing that was done. That was not done by us.
    Mrs. Morella. But that's interesting, 28 children and 4 
adults.
    Admiral Williams. Right. For the Child Development Center, 
I'm not aware of the other testing protocols.
    Mrs. Morella. Were there a lot that did not----
    Admiral Williams. I don't believe so. There may have been a 
couple, but it wasn't that many.
    Mrs. Morella. The children were required to be tested.
    Admiral Williams. They weren't required, but all of them 
did participate.
    Mrs. Morella. They did all participate?
    Admiral Williams. Yes, ma'am.
    Mrs. Morella. I would be curious, maybe someone else would 
be able to answer that for me later. But it seemed to me that 
the testing that was done at the AU athletic field would also 
be important to know who was tested, what the results were 
there, too.
    Going into that EPIC photo, Mr. Voltaggio, does it include 
all the test sites, all the test----
    Mr. Voltaggio. There were a number of photographs that were 
used by EPIC at different times. In 1986, I believe there were 
three separate time periods that were looked at. Basically what 
EPIC does is they go to photographic archives, and they find 
any maps they can possibly find from any different year, and 
then they compare maps from year to year to determine what, if 
any, changes have occurred. And they are the ones that are 
truly expert with regard to kind of what they did and how they 
did it.
    But my understanding is that--then subsequent to 1986, we 
have--we are directly working with EPIC now, and there are more 
maps that were looked at subsequently. So there are at least 
five or six maps they know that I know that they're looking at 
and that are helping us further refine the subsequent sampling 
that is going on now.
    Mrs. Morella. Uh-huh. So that there will be probably more 
data----
    Mr. Voltaggio. Yes.
    Mrs. Morella [continuing]. On the next map that you will 
superimpose upon this one.
    Mr. Voltaggio. Absolutely.
    Mrs. Morella. So we can see that there are additional ones.
    I'm wondering also Mr. Voltaggio, in terms of the role of 
EPA and Spring Valley, does EPA have access to the Army's 
secret files?
    Mr. Voltaggio. I don't know what you mean by secret files. 
We did have----
    Mrs. Morella. All Army's files?
    Mr. Voltaggio. I've never asked for that, so I don't know. 
But I can say that with regard to Spring Valley, that we did 
have access to the 1986 report. That was done. As a matter of 
fact, we got that in 1993, along with most everyone else. In 
fact, it was 1993 that I think people first recognized, people 
other than the Army and AU, first recognized that there was 
this 1986 report. We have that report. We have all the records. 
We've gotten everything we've asked for with regard to that.
    Again, the purpose of the historical research was to better 
identify where they should sample for munitions, and we are in 
a situation now where between what the Army has and what EPIC 
has, we feel very comfortable that--and also what D.C. found--
we are very comfortable that we have as good as one could get 
for something that happened 70 years ago with regard to being 
able to determine what the level of contamination is.
    I would also say that you can never be certain that there 
is not something that couldn't have been missed.
    Mrs. Morella. What is EPA's determination as to the current 
risks to residents and those who work in Spring Valley?
    Mr. Voltaggio. Well, there is current risk. That is why we 
are taking all of the time and effort to continue to look to 
find where all the levels of arsenic are. We have had a number 
of formal risk assessments. We have consulted with ATSDR. We 
have held out signing any final documents until we got most all 
of the information that we could. Careful precautions are being 
taken right now for the work that's being done, and that helps 
to prevent risk.
    There is risk out there. That is documented in our year 
2000 risk assessment. But it is a small risk, and it is being 
aggressively addressed. The best measure of safety maybe is, 
you know, would I be comfortable living there? And the answer 
is absolutely yes. I think that the risk is being very well 
managed, and every day it's being reduced by the efforts that 
are ongoing by the tremendous level of work by the Corps, by 
the District, and by EPA.
    Mrs. Morella. There are 1,200 residences. How are you going 
about sampling or assessing them? Is it, like, voluntary on 
their part? And how many have already been sampled?
    Mr. Voltaggio. Those answers should best be directed to the 
Corps, who in the first part, is directly contacting the 
residents. We are overseeing their work. There is a protocol 
that is being used. They are requiring there to be consent 
before they go on the property. Beyond that, I really 
recommend, Congresswoman, that you ask the Corps.
    Mrs. Morella. Which will be the next panel that we'll have 
before us.
    Are you all satisfied that there is this partnership taking 
place with the Army Corps, with EPA, with the District 
Government, with AU, with all parties?
    Mr. Voltaggio. Absolutely yes, ma'am. I am very assured, 
I'm very comfortable with the level of effort that the Army has 
given, with the level of openness that the Army has with us, 
and the level of response that they have given to us when we 
ask them to do things that are in our area of expertise and 
they have the people in the field to do.
    The District has been a hands-on player for many, many 
years, and I am very comfortable that from here on out, you are 
going to continue to see, I think, what you've seen for the 
last several years. That is, a joint effort to be sure that 
this community is made safe.
    Mrs. Morella. The District indicated they might need more 
resources. Do you see that as a need from your perspective?
    Mr. Voltaggio. From what I was able to ascertain, the area 
of health studies is an area that they must indicate their 
need. The most appropriate source for them to go to would be to 
HHS, would be to ATSDR. I think that might best be addressed to 
them. When it comes to any technical support with regard to 
environmental contaminations that we are the experts on, we 
will give the District any support that they need to ensure 
that the site is made safe.
    Mrs. Morella. It's interesting, we haven't heard from the 
Korean Embassy, and I've gotten no communication from the 
Ambassador, because----
    Mr. Voltaggio. Well, there's a lot of time and effort being 
spent to make sure that site is safe. It's had quite an 
excavation project done on it.
    Mrs. Morella. Because we have Dr. Ladner who's here, who 
lives next door. Thank you very much. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mrs. Morella. I have really only one 
more question. Given your expertise, Admiral Williams, is it 
your belief that a thorough epidemiological study should be 
done in the Spring Valley community at this time?
    Admiral Williams. Excuse me, ma'am. It's too early to tell. 
We need to look at the unfolding environmental data that is 
coming in at this time and make our determination based on 
that, based on what we see in terms of exposures and the 
various types of chemicals that may be out there. So it's too 
early, but that is something that will be considered as we move 
forward.
    Ms. Norton. We're to the point now where we're trying to 
bring closure to the outstanding questions in the community. 
Now, at what point do you think one should begin the kind of 
health study I just asked you about?
    Admiral Williams. I'm sorry?
    Ms. Norton. We're already trying to go into 1,200 homes. Is 
it at that point, when we've gone into and have the data from 
those homes, that it would be appropriate to do the 
epidemiological study?
    Admiral Williams. Well, what we could do is as the 
information becomes available for those 1,200 homes in terms of 
the environmental contamination, we look at the exposures, the 
potential for exposure, and what that means to health; and then 
the next step would be followup health studies as needed. So, 
it would be in phases.
    Ms. Norton. All right. So that argues for getting the 1,200 
homes as quickly as possible so that we could then move to the 
next step?
    Admiral Williams. Yes, ma'am.
    Ms. Norton. Thank you very much. Thank you, Mrs. Morella.
    Mrs. Morella. I want to thank the second panel for being so 
patient, waiting for your turn up on the deck, and for doing 
such a good job. We hope, also, to get back to you with 
questions, additional questions that we may want you to respond 
to. And any of your suggestions about what more can be done 
with working out this partnership would be valued.
    Admiral Williams, thank you very much. Mr. Voltaggio, thank 
you, sir.
    I'll ask the third panel to come forward.
    If you can find your spot, you may want to remain standing 
for just a moment: Dr. Ladner, Mr. Walker, Mr. Reardon, 
accompanied by Mr. Kiefer and Colonel Fiala. Gentlemen, would 
you raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. Thank you very much. The record will show the 
affirmative response. Again, following through about a 5-minute 
maximum testimony so we can ask some questions, and, again, I 
preface your testimony by thanking you for being so patient. 
It's tough to be the last panel, but I appreciate your all 
being here to have heard also the testimony and the questions 
and answers.
    Dr. Ladner, welcome. Thank you, sir. We'll start off with 
you.

STATEMENTS OF BENJAMIN LADNER, PRESIDENT, AMERICAN UNIVERSITY; 
LEWIS D. WALKER, FORMER DEPUTY ASSISTANT SECRETARY OF THE ARMY, 
   ENVIRONMENT, SAFETY, AND OCCUPATIONAL HEALTH; FRANCIS E. 
 REARDON, AUDITOR GENERAL OF THE ARMY, U.S. ARMY AUDIT AGENCY, 
  ACCOMPANIED BY STEPHEN KIEFER, DEPUTY AUDITOR GENERAL, U.S. 
ARMY AUDIT AGENCY; RAYMOND J. FATZ, DEPUTY ASSISTANT SECRETARY, 
ARMY, ENVIRONMENT, SAFETY AND OCCUPATIONAL HEALTH, ACCOMPANIED 
      BY COLONEL CHARLES J. FIALA, ARMY CORPS OF ENGINEERS

    Mr. Ladner. Thank you, Madam Chair, Delegate Norton, and 
distinguished members of the panel. My name is Benjamin Ladner. 
I have been President of American University since July 1994. I 
reside at a site that is currently being investigated by the 
Army Corps of Engineers.
    American University, as we all know, offered its campus to 
the Federal Government in April 1917 in support of the United 
States' entry into World War I. It's interesting to point out 
that approximately nine other owners of wooded properties in 
Spring Valley contiguous to the University also leased their 
land to the government for use in military operations.
    In November 1918, after the armistice with Germany, the War 
Department began closing its facilities on the AU campus. 
During the final stages of dismantling, the Army entered into 
an agreement with the University and accepted responsibility 
for cleaning up the remains of their operations and restoring 
the AU campus to its prewar condition.
    In 1986, while preparing for the construction of an 
athletic facility, AU discovered a 1921 student newspaper 
article, claiming that the Army had buried munitions along the 
campus perimeter during the cleanup and dismantling process. To 
ensure the safety of its campus, AU sought confirmation from 
the Deputy Secretary of Defense that no munitions and ordnance 
were present on campus property, and it also invited the 
Environmental Protection Agency to participate in the 
assessment.
    Also in 1986, in response to a request from the University, 
the Department of Army conducted archival research and 
undertook the munitions survey of the constructionsites. Army 
testing to depths of 15 feet revealed no suspicious items. The 
Army also sent an explosive ordnance disposal support team to 
be onsite during excavation of the construction area. 
Recognizing the need to keep the AU community informed about 
the Army's activities on campus, the University distributed 
campus communications about these operations, which were also 
reported in the student newspaper at the time.
    Several months after the University's initial inquiry, the 
Army concluded that, ``the source that says munitions were 
buried is historically suspect.'' And also, ``there is no 
official evidence of any such burial.''
    In June 1986, the EPA advised the University that it had no 
firsthand information about the presence of hazardous waste in 
the vicinity of our campus, and it indicated that 
investigations of hazardous waste at these locations were the 
responsibility of the Department of Defense due to its prior 
use. Several years later, in 1993, a construction worker 
digging a utility trench uncovered unexploded ordnance and 
munitions on what is now 52nd Court, Northwest.
    This led to the Army Corps' 1993 to 1995 investigation and 
cleanup known as Operation Safe Removal. The AU campus was one 
of nine regions within Spring Valley targeted for this 
investigation. The Army completed its operations and issued a 
record of decision in June 1995. It concluded that conditions 
at the site, ``did not pose unacceptable risks to human health 
and the environment. Therefore, no further remedial action is 
necessary.''
    However, a year and a half later, in January 1997, the Army 
Corps began a new investigation of the area in response to 
inquiries from the Washington, DC, Department of Consumer and 
Regulatory Affairs. They determined that burial sites for old 
munitions might be located on property adjacent to the AU 
campus, formerly owned by the University and now belonging to 
the Republic of Korea.
    In the fall of 2000, the Army Corps notified the University 
that it wanted to test soil on the AU campus as a result of 
findings at the Republic of Korea property. Preliminary tests 
on the south side of our campus registered elevated levels of 
arsenic in the soil near the University's Child Development 
Center; elevated levels were also registered in the area of the 
athletic fields and our admissions office.
    In January 2001, more intensive tests confirmed even higher 
levels of arsenic in the soil at the CDC. Upon receiving these 
test results, literally within 90 minutes, the university took 
steps to safeguard the health of the campus community by 
immediately closing the CDC facility and relocating its 
operations.
    We subsequently closed the intramural fields as well, and 
they remain closed today until a remediation plan can be 
developed.
    While taking steps to compile complete and accurate 
information, the university implemented an open communication 
approach to its constituency regarding the activities of the 
Army Corps on campus.
    University officials have met with CDC parents as well as 
AU students, faculty, grounds and maintenance staff at 
significant times during the project to provide information and 
to address their concerns. Numerous regular updates have been 
provided and an information line established to enable people 
to ask questions and get information. A project-specific Web 
site has been set up with information about the project and 
links to other sites, including the Army Corps and the D.C. 
Health Department Web pages.
    The university is working cooperatively with the DC 
Department of Health, the Army Corps and the EPA to develop a 
thorough remediation plan for the entire campus. Despite these 
efforts American University has suffered severe disruption and 
other damages and faces the prospect of incurring additional 
damages in the future. For this reason, the university did file 
an administrative claim with the Army on July 13, 2001, seeking 
damages arising from the Army's activities.
    Thank you for allowing me to address the District 
committee. I'd be pleased to answer questions.
    Mrs. Morella. Thank you, Dr. Ladner.
    [The prepared statement of Mr. Ladner follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.050
    
    [GRAPHIC] [TIFF OMITTED] T7354.051
    
    [GRAPHIC] [TIFF OMITTED] T7354.052
    
    [GRAPHIC] [TIFF OMITTED] T7354.053
    
    [GRAPHIC] [TIFF OMITTED] T7354.054
    
    [GRAPHIC] [TIFF OMITTED] T7354.055
    
    [GRAPHIC] [TIFF OMITTED] T7354.056
    
    [GRAPHIC] [TIFF OMITTED] T7354.057
    
    [GRAPHIC] [TIFF OMITTED] T7354.058
    
    [GRAPHIC] [TIFF OMITTED] T7354.059
    
    [GRAPHIC] [TIFF OMITTED] T7354.060
    
    [GRAPHIC] [TIFF OMITTED] T7354.061
    
    [GRAPHIC] [TIFF OMITTED] T7354.062
    
    [GRAPHIC] [TIFF OMITTED] T7354.063
    
    [GRAPHIC] [TIFF OMITTED] T7354.064
    
    [GRAPHIC] [TIFF OMITTED] T7354.065
    
    [GRAPHIC] [TIFF OMITTED] T7354.066
    
    [GRAPHIC] [TIFF OMITTED] T7354.067
    
    [GRAPHIC] [TIFF OMITTED] T7354.068
    
    [GRAPHIC] [TIFF OMITTED] T7354.069
    
    [GRAPHIC] [TIFF OMITTED] T7354.070
    
    [GRAPHIC] [TIFF OMITTED] T7354.071
    
    [GRAPHIC] [TIFF OMITTED] T7354.072
    
    [GRAPHIC] [TIFF OMITTED] T7354.073
    
    [GRAPHIC] [TIFF OMITTED] T7354.074
    
    [GRAPHIC] [TIFF OMITTED] T7354.075
    
    [GRAPHIC] [TIFF OMITTED] T7354.076
    
    [GRAPHIC] [TIFF OMITTED] T7354.077
    
    [GRAPHIC] [TIFF OMITTED] T7354.078
    
    [GRAPHIC] [TIFF OMITTED] T7354.079
    
    [GRAPHIC] [TIFF OMITTED] T7354.080
    
    [GRAPHIC] [TIFF OMITTED] T7354.081
    
    [GRAPHIC] [TIFF OMITTED] T7354.082
    
    [GRAPHIC] [TIFF OMITTED] T7354.083
    
    [GRAPHIC] [TIFF OMITTED] T7354.084
    
    [GRAPHIC] [TIFF OMITTED] T7354.085
    
    [GRAPHIC] [TIFF OMITTED] T7354.086
    
    [GRAPHIC] [TIFF OMITTED] T7354.087
    
    [GRAPHIC] [TIFF OMITTED] T7354.088
    
    [GRAPHIC] [TIFF OMITTED] T7354.089
    
    [GRAPHIC] [TIFF OMITTED] T7354.090
    
    [GRAPHIC] [TIFF OMITTED] T7354.091
    
    [GRAPHIC] [TIFF OMITTED] T7354.092
    
    [GRAPHIC] [TIFF OMITTED] T7354.093
    
    [GRAPHIC] [TIFF OMITTED] T7354.094
    
    [GRAPHIC] [TIFF OMITTED] T7354.095
    
    [GRAPHIC] [TIFF OMITTED] T7354.096
    
    [GRAPHIC] [TIFF OMITTED] T7354.097
    
    [GRAPHIC] [TIFF OMITTED] T7354.098
    
    [GRAPHIC] [TIFF OMITTED] T7354.099
    
    [GRAPHIC] [TIFF OMITTED] T7354.100
    
    [GRAPHIC] [TIFF OMITTED] T7354.101
    
    [GRAPHIC] [TIFF OMITTED] T7354.102
    
    [GRAPHIC] [TIFF OMITTED] T7354.103
    
    [GRAPHIC] [TIFF OMITTED] T7354.104
    
    [GRAPHIC] [TIFF OMITTED] T7354.105
    
    [GRAPHIC] [TIFF OMITTED] T7354.106
    
    [GRAPHIC] [TIFF OMITTED] T7354.107
    
    [GRAPHIC] [TIFF OMITTED] T7354.108
    
    [GRAPHIC] [TIFF OMITTED] T7354.109
    
    [GRAPHIC] [TIFF OMITTED] T7354.110
    
    [GRAPHIC] [TIFF OMITTED] T7354.111
    
    [GRAPHIC] [TIFF OMITTED] T7354.112
    
    [GRAPHIC] [TIFF OMITTED] T7354.113
    
    [GRAPHIC] [TIFF OMITTED] T7354.114
    
    [GRAPHIC] [TIFF OMITTED] T7354.115
    
    [GRAPHIC] [TIFF OMITTED] T7354.116
    
    [GRAPHIC] [TIFF OMITTED] T7354.117
    
    [GRAPHIC] [TIFF OMITTED] T7354.118
    
    [GRAPHIC] [TIFF OMITTED] T7354.119
    
    [GRAPHIC] [TIFF OMITTED] T7354.120
    
    [GRAPHIC] [TIFF OMITTED] T7354.121
    
    [GRAPHIC] [TIFF OMITTED] T7354.122
    
    [GRAPHIC] [TIFF OMITTED] T7354.123
    
    [GRAPHIC] [TIFF OMITTED] T7354.124
    
    [GRAPHIC] [TIFF OMITTED] T7354.125
    
    [GRAPHIC] [TIFF OMITTED] T7354.126
    
    [GRAPHIC] [TIFF OMITTED] T7354.127
    
    [GRAPHIC] [TIFF OMITTED] T7354.128
    
    [GRAPHIC] [TIFF OMITTED] T7354.129
    
    [GRAPHIC] [TIFF OMITTED] T7354.130
    
    [GRAPHIC] [TIFF OMITTED] T7354.131
    
    [GRAPHIC] [TIFF OMITTED] T7354.132
    
    [GRAPHIC] [TIFF OMITTED] T7354.133
    
    [GRAPHIC] [TIFF OMITTED] T7354.134
    
    [GRAPHIC] [TIFF OMITTED] T7354.135
    
    [GRAPHIC] [TIFF OMITTED] T7354.136
    
    [GRAPHIC] [TIFF OMITTED] T7354.137
    
    [GRAPHIC] [TIFF OMITTED] T7354.138
    
    [GRAPHIC] [TIFF OMITTED] T7354.139
    
    [GRAPHIC] [TIFF OMITTED] T7354.140
    
    [GRAPHIC] [TIFF OMITTED] T7354.141
    
    [GRAPHIC] [TIFF OMITTED] T7354.142
    
    [GRAPHIC] [TIFF OMITTED] T7354.143
    
    Mrs. Morella. I'm pleased to recognize Lewis Walker, former 
Deputy Assistant Secretary of the Army for Environmental Safety 
and Occupational Health. Mr. Walker.
    Mr. Walker. Yes, Madam Chairwoman and Congresswoman Norton, 
I am Lewis D. Walker, and I was the former Deputy Assistant 
Secretary of the Army for Environment, Safety and Occupational 
Health. I retired from the Federal Government in June 1995 
first on medical leave and then formal retirement on January 1, 
1996. I was in the position from April 20, 1980, to the time of 
my retirement.
    With regard to the Spring Valley area, it was one of my 
restoration responsibilities that the Army addressed during my 
tenure.
    In 1986, Army assisted the American University with its 
construction program by having Army emergency disposal units 
survey the constructionsites. With nothing found at the sites 
down to considerable depth, the construction projects were 
completed successfully. Army then conducted a review of the 
area on the possibility of unexploded ordnance in the area and 
found no information that would require further study.
    Later, in 1993, World War I munitions were discovered in 
the Spring Valley area. The Army removed the munitions and 
initiated a restoration program for the 600-acre area. Over $20 
million were spent on this project by the time I retired in 
1995.
    Madam Chairwoman, this concludes my brief statement. I will 
be glad to respond to the questions to the extent that I can 
remember the details, and thank you for inviting me to testify 
today.
    Mrs. Morella. Thank you, Mr. Walker.
    [The prepared statement of Mr. Walker follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.144
    
    Mrs. Morella. Now I recognize Francis Reardon, Auditor 
General of the Army, the U.S. Army Audit Agency. Mr. Reardon.
    Mr. Reardon. Thank you, Chairman Morella, Congresswoman 
Norton. I am Francis Reardon, the Army's Auditor General. With 
me is Stephen Kiefer, the Agency's Deputy Auditor General for 
Installation Management Audits and the senior agency official 
who worked on our 1995 effort concerning Spring Valley.
    The Agency's efforts in regard to Spring Valley operations 
are limited to a 1995 review performed at the request of the 
U.S. Army Claims Service. The Claims Service asked for audit 
assistance in assessing the validity of a 1995 claim brought 
against the Army by the Miller Co. for about $15 million in 
damages, losses and expenses the developer said it suffered as 
a result of the Army's alleged negligence in burying chemical 
weapons. The Agency began its review on April 17, 1995, by 
meeting with the onsite project manager for the U.S. Army Corps 
of Engineers Baltimore District and reviewing available data, 
such as the results of prior surveys and research efforts by 
the Army and other government agencies, claims and 
correspondence provided by the Miller Co., relevant and 
appropriate laws and regulations applicable at the time of 
experimentation operations and in 1986.
    During the process of this review, audit staff members held 
an entrance conference on June 6, 1995, with Corps of Engineers 
headquarters personnel.
    We have noted the recent press accounts concerning Army 
audits have apparently mistaken the June 6, 1995, briefing 
charts and the interim results reflected therein as a report. 
This was not the case. Rather, the charts simply reflect the 
auditor's review at that stage of the ongoing review. It should 
be recognized that additional work occurred after the entrance 
briefing with the Corps of Engineers headquarters personnel. 
After the additional work, which included review of documents, 
applicable laws, and military regulations, conversation with 
subject matter experts, and a legal review by the Agency's 
chief counsel, we reached our final conclusions.
    On July 27, 1995, the Agency issued Report 95-774 
addressing the claim by the Spring Valley real estate 
developer. The Agency concluded that the Army had no legal or 
regulatory requirement to formally notify local authorities or 
third parties in 1986 because Army researchers were unable to 
conclusively determine that chemical weapons had ever been 
buried at Spring Valley. The Army fulfilled its 
responsibilities during World War I by storing and disposing of 
chemical weapons in accordance with laws and regulations 
applicable at the time. The real estate developer should have 
known about the presence of the experiment station and the 
possibility that dangerous materials existed, and at least $11 
million of the real estate developer's $15 million claim was 
without merit, and due to a lack of documentation from the 
Miller Co., the remaining $4 million could not be evaluated.
    Mr. Kiefer and I appreciate the opportunity to testify and 
provide the Army audit agency results concerning Spring Valley. 
That concludes my statement, Madam Chairwoman.
    Mrs. Morella. Thank you, Mr. Reardon.
    [The prepared statement of Mr. Reardon follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.145
    
    [GRAPHIC] [TIFF OMITTED] T7354.146
    
    [GRAPHIC] [TIFF OMITTED] T7354.147
    
    [GRAPHIC] [TIFF OMITTED] T7354.148
    
    [GRAPHIC] [TIFF OMITTED] T7354.149
    
    [GRAPHIC] [TIFF OMITTED] T7354.150
    
    [GRAPHIC] [TIFF OMITTED] T7354.151
    
    [GRAPHIC] [TIFF OMITTED] T7354.152
    
    [GRAPHIC] [TIFF OMITTED] T7354.153
    
    [GRAPHIC] [TIFF OMITTED] T7354.154
    
    [GRAPHIC] [TIFF OMITTED] T7354.155
    
    [GRAPHIC] [TIFF OMITTED] T7354.156
    
    [GRAPHIC] [TIFF OMITTED] T7354.157
    
    [GRAPHIC] [TIFF OMITTED] T7354.158
    
    [GRAPHIC] [TIFF OMITTED] T7354.159
    
    [GRAPHIC] [TIFF OMITTED] T7354.160
    
    [GRAPHIC] [TIFF OMITTED] T7354.161
    
    [GRAPHIC] [TIFF OMITTED] T7354.162
    
    [GRAPHIC] [TIFF OMITTED] T7354.163
    
    Mrs. Morella. You're just on call for questions right and 
so----
    Mr. Kiefer. Right.
    Mrs. Morella. And so now let me see, I have Colonel Fiala, 
but are you planning to testify? This is just a brief search 
for identity. All right. I know you're a special presence.
    Raymond Fatz, Deputy Assistant Secretary of the Army for 
Environment, Safety and Occupational Health. Forgive the 
interruption. Thank you, sir.
    Mr. Fatz. Good afternoon, Madam Chairwoman and 
Congresswoman Norton. I'm pleased to have this opportunity to 
appear before you to discuss Army activities at the formerly 
used defense site [FUDS], located in Spring Valley.
    The Army's No. 1 priority for Spring Valley is to protect 
the health and safety of its residents. I have personally been 
to the site and have attended public meetings and have listened 
to the residents' concerns. We share their concerns and are 
committed to identifying and removing remaining contamination 
from defense-related activities. Through a collaborative effort 
with the Environmental Protection Agency, the District of 
Columbia Department of Health, American University and the 
community, we will work to ensure that information on our 
activities is openly communicated and that the cleanup proceeds 
in a rapid and thorough manner. We will continue to do so until 
the community is satisfied that the cleanup is complete.
    As you know, the Army has initiated a comprehensive 
sampling program at every residential property in Spring Valley 
to identify potential contamination. This effort was designed 
and is being undertaken in close coordination with our 
regulatory partners and the community. It is my hope that this 
effort and any necessary follow-on actions will provide a level 
of comfort to the residents that their property is safe for 
their families.
    This is a highly complex project due to the nature of 
contamination, the fact that the area is so highly developed 
and is a residential community. The Army has worked closely 
with the District of Columbia, the EPA, American University and 
ATSDR since 1993 to share information and to coordinate plans 
and future actions. I believe that the Army has been forthright 
in providing information to all interested parties.
    After the discovery of the munitions by a construction crew 
in 1993, the Army began extensive outreach to the community. We 
developed a public involvement and response plan that had the 
specific objectives of keeping the community informed, 
providing an opportunity to review and comment on work being 
conducted, and ensuring that the community concerns are 
integrated into the plans and actions. Today information is 
shared through community meetings, newsletters, status updates, 
a Web site and information repository at the Palisades Public 
Library.
    This spring the Army established a restoration advisory 
board comprised of 14 community members as well as 
representatives from several involved agencies. The board 
provides an expanded opportunity for public input to the 
cleanup process.
    The safety and well-being of the community are of paramount 
importance to the Army. I know that this may be a very 
difficult time for the Spring Valley residents. As a parent, I 
understand their need to have confidence in the safety of their 
homes and yards. I want to assure you that the Army is 
committed to restoring that confidence. The Army is applying 
its best expertise and resources and technology to the 
situation. We will continue to clean up this site as 
comprehensively and effectively as possible in coordination 
with the regulatory agencies and the community.
    I believe that the Army acted in good faith at every stage 
of this project, based on the information and technology 
available to us at the time. Nonetheless, it is now clear that 
some contamination went undetected despite our efforts.
    Over the past 15 years, we have learned a great deal about 
the past practices dating back to World War I and how to better 
detect and characterize contamination. A review of our actions 
at Spring Valley will ensure that what we have learned is 
applied as we go forward investigating and remediating this and 
other sites.
    I appreciate the opportunity to testify on this matter of 
importance. Thank you.
    Mrs. Morella. Thank you very much.
    [The prepared statement of Mr. Fatz follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.164
    
    [GRAPHIC] [TIFF OMITTED] T7354.165
    
    [GRAPHIC] [TIFF OMITTED] T7354.166
    
    [GRAPHIC] [TIFF OMITTED] T7354.167
    
    [GRAPHIC] [TIFF OMITTED] T7354.168
    
    [GRAPHIC] [TIFF OMITTED] T7354.169
    
    [GRAPHIC] [TIFF OMITTED] T7354.170
    
    Mrs. Morella. Colonel Fiala.
    Colonel Fiala. Good afternoon, Madam Chairman and 
Congresswoman Norton. I am Colonel Charles J. Fiala, Jr., 
Commander and District Engineer of the Baltimore District Corps 
of Engineers. Thank you for inviting me to testify today.
    Since February 1993, the Baltimore District Corps of 
Engineers has been the lead Army agency responsible for site 
operations in the environmental cleanup at Spring Valley 
formerly used defense site in Washington, DC. I want to start 
out by letting you know we share the concerns of the community. 
I have a large team of dedicated specialists working on this 
project headed by my site operations officer Major Mike 
Peloquin, and while the members of his team may not live in 
Spring Valley, they view themselves as community members, and 
they work very hard and take their work very seriously.
    To illustrate this point I would like to share with you 
some comments made by one Spring Valley resident when Mike's 
predecessor Major Brian Plaisted was preparing to retire a few 
months ago.
    This resident said of Brian Plaisted, ``He earned the 
respect of the members of the Spring Valley-Wesley Heights 
Citizens Association. He has pursued a difficult mission with 
care and good judgment, always with an eye to the interest of 
the residents of this area. We thank him for his concern for 
the well-being of people living near the chemical warfare 
operations site and for his untiring efforts to keep residents 
informed.''
    This mission is a complex mission. There are no easy 
solutions. We have a large site, over 660 acres, with what now 
appears to be isolated areas of contamination. Trying to find 
this contamination is a little like trying to find the 
proverbial needle in a haystack; difficult, but not impossible. 
The contamination resulted from activities that took place over 
80 years ago when today's strict environmental laws and 
regulations did not exist. Many of the activities and disposal 
practices were undocumented, and to complicate the problem 
further, what was once a large rural area has been extensively 
developed, so the topography of today is nothing like it was 80 
years ago.
    A detailed chronology of our involvement is provided in my 
written testimony and has been adequately already summarized by 
Mr. Voltaggio earlier.
    Right now I would like to emphasize that from the beginning 
of our involvement in Spring Valley, we have worked hard to 
make our investigation totally open and to include the 
community in the process. We are continuing to look for better 
ways to do this. Our latest effort in this regard was the 
establishment of the Restoration Advisory Board made up of 
residents, business interests and the involved government 
agencies. We've coordinated our actions with the EPA, D.C. 
government, and other defense agencies and the community. We've 
conducted sampling, laboratory analyses and risk assessments 
using the latest sampling techniques and testing protocols. A 
top priority of the Army has been and continues to be the 
health and safety of the community and the work force we have 
on the ground conducting operations.
    Past decisions can always be criticized in hindsight, but I 
believe that they were made in good faith and with the best 
information available at the time. We will continue to 
coordinate our work at Spring Valley openly and in full 
consultation with the community, D.C. government and the EPA. 
The Army Corps of Engineers has committed to aggressively 
identifying and removing all hazards associated with past 
defensive actions in the Spring Valley neighborhood. This 
commitment is supported by resources from numerous Army 
agencies, including personal involvement at the Army 
Secretariat level and by onsite support from the world's 
foremost experts in ordnance, chemical warfare materiel, and 
the area of photointerpretation.
    Thank you for the opportunity to testify. This concludes my 
remarks, and I'll be happy to answer your questions.
    [The prepared statement of Colonel Fiala follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.171
    
    [GRAPHIC] [TIFF OMITTED] T7354.172
    
    [GRAPHIC] [TIFF OMITTED] T7354.173
    
    [GRAPHIC] [TIFF OMITTED] T7354.174
    
    [GRAPHIC] [TIFF OMITTED] T7354.175
    
    [GRAPHIC] [TIFF OMITTED] T7354.176
    
    [GRAPHIC] [TIFF OMITTED] T7354.177
    
    [GRAPHIC] [TIFF OMITTED] T7354.178
    
    [GRAPHIC] [TIFF OMITTED] T7354.179
    
    [GRAPHIC] [TIFF OMITTED] T7354.180
    
    [GRAPHIC] [TIFF OMITTED] T7354.181
    
    [GRAPHIC] [TIFF OMITTED] T7354.182
    
    [GRAPHIC] [TIFF OMITTED] T7354.183
    
    [GRAPHIC] [TIFF OMITTED] T7354.184
    
    [GRAPHIC] [TIFF OMITTED] T7354.185
    
    [GRAPHIC] [TIFF OMITTED] T7354.186
    
    [GRAPHIC] [TIFF OMITTED] T7354.187
    
    [GRAPHIC] [TIFF OMITTED] T7354.188
    
    [GRAPHIC] [TIFF OMITTED] T7354.189
    
    [GRAPHIC] [TIFF OMITTED] T7354.190
    
    [GRAPHIC] [TIFF OMITTED] T7354.191
    
    [GRAPHIC] [TIFF OMITTED] T7354.192
    
    [GRAPHIC] [TIFF OMITTED] T7354.193
    
    Mrs. Morella. Thank you very much, Colonel Fiala, and if I 
could just ask this third and final panel if they would allow 
us to recess for about 35 minutes, give you a chance to stand 
up and move around. We'll have five consecutive votes on the 
floor, and then we will come back for questioning.
    OK. Great. Thank you. So the committee is in recess for 
about 35 minutes.
    [Recess.]
    Mrs. Morella. Thank you for being so patient. I'm going to 
reconvene our hearing, and we'll commence with our questioning. 
I thank the panel for being here for the entire time for their 
testimony.
    I will start off, Dr. Ladner; with you, since you were the 
first one to testify. Thank you for being here, first of all. I 
want to point out, as you are aware, Dr. Ladner, that the 
subcommittee did invite Donald Myers to this hearing, and 
Donald Myers is the vice president for finance and treasurer of 
the American University.
    Mr. Ladner. That's right.
    Mrs. Morella. And you're aware during the relevant period 
we're discussing, 1986 to the present, Donald Myers held this 
position at American University. At this time, the invitation 
to Dr. Donald Myers to appear at this hearing will be submitted 
for the record.
    And you're aware that the subcommittee was informed by 
letter from David Taylor, your chief of staff, dated July 25, 
2001, that Donald Myers was unable to attend because of 
illness?
    Mr. Ladner. That's right.
    Mrs. Morella. And I'm going to submit the letter from David 
Taylor for the record.
    The subcommittee also sent a letter to David Taylor 
inquiring when Vice President Donald Myers would be available 
to give testimony under oath. I think you're probably aware of 
that.
    Mr. Ladner. I am.
    Mrs. Morella. For the record, I am going to submit the 
letter for the record.
    I want to during my period of time then switch over to 
General Walker. General Walker, let's go to the bottom line 
first. Why didn't the Army feel it was necessary to inform the 
public that there might be munitions buried under the 
University in the Spring Valley area?
    General Walker. Madam Chairman, the situation--I realize it 
was my decision that's under close scrutiny here, but based on 
the evidence that we had at that time and the many projects 
that we were dealing with throughout the country, it didn't 
show that this site warranted additional study.
    However, I always at any site left the situation open that 
if we found something, or new information, we would return. I 
did not find sufficient evidence at that time to move forward 
with and also did not see the need to disclose that. We made a 
decision that there wasn't enough evidence to go forward. We 
had other sites that we're dealing with, literally thousands, 
and all these, and Spring Valley as well, I was very concerned 
about the health and welfare.
    We had a particular site where two young children had been 
killed. We had several sites where we were contaminating the 
drinking waters of communities, where we weren't giving bottled 
water out, and then making arrangements for permanent hookup of 
safe water supplies.
    So this fit into a situation where there were many projects 
out there, and this one did not warrant the evidence. Had we 
had hard evidence there had been burial there and it was very 
clear, we would have been there with a thorough investigation.
    Mrs. Morella. Who did make the ultimate decision regarding 
the U.S. Government's role in the Spring Valley, once American 
University asked for your help in 1986? How high up did the 
matter go? Did it go to the White House?
    General Walker. No. This was----
    Mrs. Morella. Defense Secretary?
    General Walker. Well, you always hate to come back and have 
a review of your decisions and find out that they were not 
accurate. I was the one that made the decision. I was the one 
that worked with American University. I was the one that had 
made the decision, on the evidence that I had, not to go 
forward. People were informed. My supervisors were informed. 
But I was in charge of the environmental programs and the 
occupational health programs in the Army and safety programs, 
and so I made that decision.
    Mrs. Morella. In reading that October 29, 1986 report by 
the Army, that was sent to American University, in terms of 
semantics it seems to take pains to discredit any contemporary 
evidence that munitions were buried in Spring Valley. In fact, 
it even says we could not disprove the possibility that some 
materials remain buried on or near the campus of American 
University. And then, additionally, one of the main conclusions 
was the source that says that munitions were buried is 
historically suspect, and yet the Army's analysis of the 
source, two American University newspaper--Courier--articles 
from 1921 focus on disproving minor details of the reports, 
like the munitions buried, the style of writing, rather than 
the big-picture question of whether or not weapons were indeed 
buried there.
    We wonder whether the Army was ever really interested in 
finding out the truth about buried munitions.
    General Walker. Madam Chairman, we were very concerned at 
the time when I had the program of looking and trying to 
ascertain where all those that might pose threats of health and 
safety to individuals might be, and we operated--we have the 
program. We actually--after 1986, we expanded the program 
because we knew that it was too large for the former used sites 
and current active sites on the installations, but we were 
quite concerned about every area and this was one of many. We 
made a judgment call, or I made a judgment call. It turned out 
by 1993 that it was proven that there were munitions there. It 
was one of those judgments that you make and then you find out 
that it was not that sound.
    But the Army still admitted that they--in 1993 when we 
found the munitions there, we immediately stepped forward, 
moved to remove them, worked with the D.C. government, the 
Army--or the Environmental Protection Agency and all those 
concerned, to make sure that we maintained the health and 
safety of the people in the area.
    Mrs. Morella. Did the Army or the U.S. Government conduct 
its own archival review of military activities on the AU 
campus, and if so, were you ever denied any access to material 
because it was deemed classified?
    General Walker. No. I had a security clearance, Madam 
Chairman. I didn't feel that I was denied any information. We 
had two studies that were important to this effort. And in the 
review, we had the U.S. Army Toxic and Hazardous Materials 
Agency, which is now named the Army Environmental Center, and 
then we had the EPIC report that was referred to earlier by the 
EPA representative.
    Mrs. Morella. Actually, I guess what you're saying to me, 
General Walker, is that you made a decision but you were 
incorrect in making the decision?
    General Walker. I made the decision on the information that 
I had which later basically was inadequate, yes.
    Mrs. Morella. Did you make it alone, make the decision 
alone?
    General Walker. I had people that reviewed the material who 
were there, but I was the one responsible for making the 
decision.
    Mrs. Morella. OK. I'll get back in on the next round. Ms. 
Norton.
    Ms. Norton. Thank you very much, Mrs. Morella. Mr. Reardon.
    Mr. Reardon. Yes, ma'am?
    Ms. Norton. I'm looking at your testimony, and you try to 
distinguish the charts. You say it is charts from which the 
conclusion was drawn, that the Agency believed that--this is 
the sticking point here--the 1986 finding, as it were, that 
came from these charts, that the Army should have formally 
notified local authorities--I'm quoting from your testimony 
now--and third parties in 1986 of potential existence of buried 
chemicals.
    Then you go on to say that ultimately the auditors 
performed additional work--and here I'm quoting again--
discussed the laws and regulations in effect in 1986 with 
Agency legal counsel and command subject matter experts. And 
that on the basis of those discussions, you testified the Army 
had no obligation to formally notify local authorities or third 
parties, because at that time the available evidence of buried 
chemical weapons at Spring Valley was at best inconclusive.
    Is it your testimony that in order to do further 
investigation, one has to already have conclusive evidence of 
contaminants and that there was no obligation, given the 
indications here, to seek further evidence of contaminants?
    Mr. Kiefer. Let me address it, please. There's a couple of 
issues here. One, we were chartered to do a review of the 
potential existence of chemical weapons, not contaminants.
    Ms. Norton. Let's say chemical weapons then.
    Mr. Kiefer. The review on June 6th when we had our entrance 
conference, we had charts that were--the conclusion was based 
on the premise that we had knowledge of a potential chemical 
weapons storage site. Based on that information, we concluded 
that notification should be made. Subsequent review and talking 
with the subject matter experts and our legal counsel, there 
were no requirements to report the potential of chemical 
weapons----
    Ms. Norton. Stop there. What elicits my question is that 
the lawyers got in the picture. I'm a graduate of Yale Law 
School. I know what--I make no defense of lawyers, although I 
respect them.
    Mr. Kiefer. Ms. Norton, under our charter, we were 
validating a legal claim made by Miller Co. That's why we were 
involved.
    Ms. Norton. Therefore, you were protecting the Agency 
against liability is what your testimony is.
    Mr. Kiefer. No. We were validating the claim for the Army. 
We are an independent Army--Mr. Reardon is the Auditor General 
of the Army, and he's independent in all the evaluations we do. 
We were to assess was there validity to the claim made by 
Miller Co.
    Ms. Norton. I can understand that you, in connection with a 
lawsuit, may have said that there is no validity to the claim 
made by this claimant. What I cannot understand is why in 1986 
this did not encourage further investigation by the Army. Those 
are two different matters.
    You know, I can understand, look, there's nothing here that 
says contaminated weapons here. We don't have any conclusive 
evidence. I accept that. Don't sue us on the basis of what we 
don't know. What I don't accept is that the Army or the auditor 
would not have said, while there is no evidence now, there is 
enough indication, particularly since this is a residential 
community and this is the second largest site in the United 
States where there were munitions, and maybe we ourselves ought 
to look further.
    You could have still protected yourself against liability 
and you may well have been right, there's not any liability, 
and done your duty as a public agency to look for chemical 
weapons for which you would have been exclusively responsible.
    Mr. Kiefer. Again, Ms. Norton, based on the information we 
had, there was no clear evidence there were munitions stored 
there. And I think on top of that, the fact that----
    Ms. Norton. You said there was no--look, all this says is 
that the Army had no obligation--and listen to this. I can 
understand that there was no clear evidence that chemical 
weapons were stored in the community, but it says that the Army 
had--your testimony, Mr. Reardon's testimony, it says the 
obligation--had no obligation to formally notify local 
authorities or third parties, because at the time the available 
evidence wasn't clear enough.
    Mr. Kiefer. Correct.
    Ms. Norton. And I am saying that is very scary because all 
you would have been required to do is further investigation.
    Mr. Kiefer. But I guess, along with that, you have to 
understand that the Army was also working with American 
University when they were getting ready to do their 
construction, that we have not found anything, but if anything 
is found during construction, the Army was standing by ready to 
do what needed to be done.
    Ms. Norton. But you see what it does, that leads it to a 
hit and miss ad hoc, if you find something then maybe we'll 
find something, but we're certainly not going to move on our 
own, we certainly have no obligation except on a site-by-site 
basis to see whether or not there are weapons buried here.
    There seems to be no proactive preventative response here. 
And so if the attitude you initially took continued, then we 
would still be waiting, weapon by weapon, for somebody to dig 
up earth, building a house or building on the AU campus, before 
AU could do anything. At some point you all decided you did 
have to move forward.
    Mr. Kiefer. Let me try to clarify this a little bit more. 
We were validating a claim by Miller Co. Our work which we 
currently are involved in and have been involved in does look 
at health and safety environmental issues. It was a totally 
different scope of events. As far as Army Audit's role, we were 
validating a claim, we weren't doing a----
    Ms. Norton. I accept that, Mr. Kiefer. You were validating 
a claim. And my concern is that beyond validating that claim, 
you saw no reason to look further to see if there might have 
been chemical weapons. You could--it seems to me that those 
are--I said from the beginning, those are two different things. 
But your own early warning seems to have been ignored.
    For example, you concluded in 1995 that there was no 
further risk. You dismissed D.C.'s pleas for further testing in 
1997. It looks as though the Army had to be pushed every step 
of the way in order to accept responsibility and to--finally, 
of course, you have a good cleanup going on, but at 
considerable angst to the community involved.
    Could I ask a question of Mr.----
    Mr. Kiefer. Ms. Norton, could I----
    Ms. Norton. Yes indeed, if you have further response.
    Mr. Kiefer. Remember, we were looking back to 1986. We 
weren't actively involved in 1993, 1995 operations. This again, 
we were looking at a claim, and the objective for the munitions 
was 1986.
    Ms. Norton. I understand that. It's the trail we're trying 
to get back to----
    Mr. Kiefer. I understand.
    Ms. Norton. How could the Army Corps of Engineers have 
become more proactive? Could they have taken more seriously 
back in 1986 what I'm calling an early warning?
    Could I ask, Dr. Ladner, did AU offer its campus? Was it 
paid for allowing this weapons testing to occur?
    Mr. Ladner. You're talking about originally?
    Ms. Norton. Yes.
    Mr. Ladner. In 1917? The initiative of the then-president 
and the board of trustees is what led to the Army coming in. We 
actually wrote a letter to the President of the United States 
and made this offer, and the Army then came in and developed 
the site in the way that they did.
    Ms. Norton. Was there any quid pro quo? Why did you decide 
to do that----
    Mr. Ladner. I think it was patriotism. We had a lot of 
land. We had 92 acres. And back in 1919, that was farmland. And 
I think it was simply generosity of the spirit, that this can 
help in the cause. We did the same thing in World War II, 
incidentally.
    Ms. Norton. Is that right?
    Mr. Ladner. Right.
    Ms. Norton. As a result of your offer in World War II, were 
there any burials that took place?
    Mr. Ladner. Well, in fact there were two components to the 
program, as best I can recall from the research. One is that we 
trained what were then called WAVES. The women in the Navy had 
a large barracks and training site on our campus, and they had 
a Navy Disposal Training Center in which they used no live 
ammunition but only dummy weapons to be worked on by the Navy.
    Ms. Norton. Dr. Ladner, you had--American University, not 
you yourself, had access to that map from 1986, did you not?
    Mr. Ladner. We did.
    Ms. Norton. Therefore, you did not have to rely entirely 
upon the opinion of the Army auditors, did you?
    Mr. Ladner. No.
    Ms. Norton. What did American University believe that map 
showed in 1986?
    Mr. Ladner. Two or three things are relevant to our 
understanding of that map. One is it's important to note that 
we're the ones that took the initiative to find out what was 
there originally through our own research. So we were very 
eager. We notified the EPA, we notified the Army, etc. Second, 
when this report came, as Madam Chair has noted, through the 
October 29 cover letter it indicated that there was absolutely 
no cause for alarm, there was no munition burial, there was no 
reason to believe that there was any danger or hazard. Third, 
it's important----
    Ms. Norton. Let me ask you, when you asked the Army what's 
the meaning of the map? Is that what you are saying?
    Mr. Ladner. Absolutely. We were not the experts. We went to 
them for help. We don't have our own munitions search team. We 
don't have the expertise to do that. We went to them because 
they have that kind of expertise. So even though we're the 
largest landowner, obviously, we are one of the landowners 
there in a position of saying someone who is an expert needs to 
come in here and tell us what we have here. We followed all the 
right protocol. We contacted the Defense Department, the EPA, 
etc., to get an answer to that question. It's also important to 
note as----
    Ms. Norton. Did you ever have discussions with----
    Mr. Ladner. Pardon me?
    Ms. Norton. Did you ever have discussions in the university 
community about these discoveries, or with members of the 
community?
    Mr. Ladner. We notified the communities through memoranda, 
and it was reported in the student newspaper. There was a 
period of several months, because we were involved in a 
construction project where the Army was clearly visible there 
every day there onsite, and we reported what they were doing 
and why. Clearly, it was discussed by our general counsel, by 
our vice president of facilities, etc., during that time to be 
able to make judgments about what the Army was telling us.
    When they completed the excavation, they gave us a clean 
bill of health, and we built the building. So we didn't feel 
that we were in any jeopardy, that there was some alarm bell 
that needed to be pulled. We were told that there was nothing 
found.
    Ms. Norton. Why have you brought suit, and what do you 
expect to prove in that lawsuit and to get as a result of that 
lawsuit?
    Mr. Ladner. Right. Small technicality which you as a lawyer 
may know. We actually haven't brought suit. We've filed an 
administrative claim with the Army. We hope over the next 6 
months to be able to prevent having to file suit. We simply 
want to recover real damages to the University. There have been 
very direct charges that have cost us in terms of relocating--
--
    Ms. Norton. Why do you think you're entitled? Who do you 
think has harmed the University?
    Mr. Ladner. The Army.
    Ms. Norton. I'll wait for the next round, Madam Chair.
    Mrs. Morella. Thank you.
    It's interesting when you mentioned, Dr. Ladner, that in a 
sense of patriotism that American University offered to be 
literally the dumping ground. Did they try to get--well, did 
the Army get indemnification? I mean, did the University in any 
way ask for--you know what I'm trying to say.
    Mr. Ladner. Sure----
    Mrs. Morella. Would there be any blame that the University 
or any claim that the University could make for any damages?
    Mr. Ladner. Yes. Madam Chair, in 1920 when the Army 
activities were completed and they moved, or at least said 
later that they had moved all the munitions to the Edgewood 
area in Maryland, we then signed an agreement. Our president 
signed an agreement, with the Army that indicated two things: 
one, that the condition of the land would be restored to its 
prewar condition; and, two, that upon payment of $121,000-plus 
to the University, the Army would be indemnified.
    Mrs. Morella. The Army would be. So that evidently took 
place and----
    Mr. Ladner. Right.
    Mrs. Morella. It sounded like you needed a good lawyer at 
that time to----
    Mr. Ladner. We have one now.
    Mrs. Morella. But now let me get back to where you live, 
and I alluded to that earlier when I mentioned the Korean 
Embassy. The house that's next door to you is one that was 
formerly owned and occupied by the--I think it's the Loughlins.
    Mr. Ladner. Loughlins. Tom and Kathy Laughlin.
    Mrs. Morella. Right. Right. And they have two young 
children who have been living in that house since 1994, and the 
Washington Post reported on Wednesday of this week that the 
Loughlins say that this week the Army, AU, the EPA, and the 
developer withheld critical information. Do you have any 
response to that?
    Mr. Ladner. Yes. We had no transactions with the Loughlins. 
We didn't sell them the property. We have never in any way had 
direct responsibility for that property since they have owned 
it or in the process of their buying it.
    I can say that I personally went next door when some small 
vials of chlorine and acid were found in our front yard, in the 
president's residence, and notified them that a remedial action 
was about to take place, and that we had been notified that it 
was not a dangerous transaction, and indeed my wife and I have 
continued to live in the house throughout all of the testing 
and remediation around that area.
    In addition, the University formally notified all the 
people on that block of what was taking place. So we did take 
steps to notify the Loughlins in particular of what we knew at 
the time.
    Mrs. Morella. The Washington Post in that very same article 
said that Robert Brandt, president of the development company, 
Lawrence N. Brandt, Inc., said that his company told them 
everything we knew; and stated, I'm upset because I purchased 
the property from AU. Is it true that the developer purchased 
the Laughlin property from American University----
    Mr. Ladner. Not directly. We actually auctioned the 
property in 1987, and I believe it was purchased by Miller & 
Co., actually, and then sold to Mr. Brandt.
    Mrs. Morella. And the house you live in, was that built by 
the same development company?
    Mr. Ladner. It was.
    Mrs. Morella. And that property was also purchased by the 
developer----
    Mr. Ladner. That's right. That's right.
    Mrs. Morella [continuing]. From American University?
    Mr. Ladner. Those two parcels together, at the same time.
    Mrs. Morella. OK. The Washington Post also reported that a 
spokesman for American University said the University relied on 
information from the Army and the EPA. This is referring to the 
same year the developers sold the property next door to you--
the Loughlins'--the American University purchased your house 
and the lot from the same developer. I think that's probably 
safe to say? OK.
    The Washington Post also reported that a spokesman for AU 
said the University relied on information from the Army and the 
EPA. What information did the University receive from the Army 
and the EPA concerning toxic contaminants on the American 
University campus and the property on Glenbrook Road?
    Mr. Ladner. You have already heard testimony earlier from 
the EPA representative that the mindset throughout the period 
until 1993 was not looking for chemical contamination, it was 
looking for munitions. And indeed the staff and administration 
at American University were concerned about finding shrapnel, 
which they did in 1994, even finding a dummy bomb which they 
did earlier, and so forth. And we took seriously the reports 
that were given to us by the experts, which we had invited in, 
and on least three different occasions--you quoted from one--
the October 29 report said very explicitly there's nothing to 
worry about, there are no munitions burials here, there are no 
harmful munitions, etc. So we took that information and relied 
on it.
    Mrs. Morella. Semantics is so very important in terms of 
how you interpret something, what it is--``is'' is at any 
particular point. I've often said sometimes to tell the truth, 
the whole truth, and nothing but the truth can mean three 
different things; so we have to be very careful with that.
    I want to go to Colonel Fiala. Sir, could you enlighten us 
in terms of what the process has been for obtaining permission 
from property owners to test property? And it is the 
understanding of the subcommittee that less than half of those 
1,200 property owners have signed the right of entry form. Can 
you update us on the status?
    Colonel Fiala. Yes, ma'am. Let me update you on the whole 
process that we came about in developing a comprehensive 
sampling plan. We worked with our partners at EPA. Now, again 
this is soil contamination. So we kind of leaned very hard on 
the EPA to work with us on developing a soil sample protocol. 
That work transpired in February of this year.
    In March of this year, we had a community meeting where we 
laid out a draft plan to the community. That plan had already 
been coordinated by the EPA. It had been coordinated with the 
D.C. Health Department. We got their comments. A month later we 
came back and had refined our plan based on their comments, 
based on further comments from our partners in the EPA and D.C. 
Health, and briefed the community on our sampling plan.
    To date, we have got the rights of entry of--we have 1,200 
properties, homeowners that we have to get rights of entry on, 
and there's another 400 sites divided up into half-acre parcels 
in the area. To date, we have rights of entry of a little over 
650 of that 1,200.
    Now, we aren't sitting on our hands with that. We have 
folks personally calling people in the neighborhood, knocking 
on doors, making sure they have the rights of entry forms and 
taking, in my view, a very aggressive posture in trying to get 
these. Now, this is the summertime, so some people may be out 
of the town for the summer and we may have to wait until this 
fall. But we're continuing aggressively to push getting these 
rights of entry forms signed so we can enter their property.
    Mrs. Morella. So let's say you have reason to believe that 
a certain neighborhood has high levels of arsenic and you have 
not been able to acquire permission from the owners; you don't 
have that right of entry. Do you have the power to test the 
soils? Can you test it anyway?
    Colonel Fiala. We haven't stumbled onto that at this point, 
and in fact the heightened media attention has kind of moved 
that process forward and----
    Mrs. Morella. So you haven't had anybody who's refused 
that----
    Colonel Fiala. We haven't. Now, initially in some of our 
operations we did. We had some areas back around the AU 
property and the Korean ambassador's property. We had 61 
properties that we wanted to sample. Of that, initially we got 
42 properties that were sampled in late summer and in the fall 
of 2000. Eight additional properties--as we started getting out 
there and taking samples, then eight additional property owners 
came forward and said you could sample that. And we did that 
sampling in January and February 2000. In that specific year, 
we still have a couple properties that we're still waiting 
for--waiting.
    This is a gradual process. As we further get out there, and 
with the heightened media and our outreach program and through 
the RAB, and through our newsletters and through our Web site 
and through our personal phone calls with the property owners, 
we're confident we're going to get----
    Mrs. Morella. But you don't have the power to do it?
    Colonel Fiala. I don't have the power to----
    Mrs. Morella. You can use other means. What do you do when 
you find that the soil has been contaminated and there are 
problems? What do you do?
    Colonel Fiala. The first step is we're taking a sample of 
the soil. We run it through a lab. This is the same lab that 
we've used throughout the operation. So we want to make sure we 
are consistent with the data we're getting out. If you have 
elevated composite samples above the background level, which is 
about 18 parts per million, we then go in and further refine 
the sampling process in about a 20-meter--20-foot square, take 
detailed samples, and further test that if there's an elevated. 
If not, we won't do any testing.
    And this is in conjunction with the D.C. Health Department 
and EPA. When we get the results from the labs, we immediately 
provide that to the property owners so they know right away 
what the data is and what it means.
    Mrs. Morella. And do you correct it?
    Colonel Fiala. Well, again if it's above the background 
levels, we'll go back in and further--in a refined sampling 
program or process to refine where the contamination is. Once 
we've refined the contamination, there's a risk assessment that 
is done in conjunction with the EPA, in conjunction with the 
D.C. Health Department, to determine whether or not you have to 
physically remove the soil or that it can stay there.
    Mrs. Morella. But the Army does that----
    Colonel Fiala. Yes. And then we go and do it. So, for 
example, we went through that process in the backyard of the 
Korean ambassador's property, and the determination--where we 
found the samples, we did a detailed sample, found where the 
contamination was, went through the risk analysis process, and 
determined in consultation with EPA and D.C. Health Department 
that we would remove 2 feet of soil from the backyard of the 
Korean ambassador's property. So that's the process.
    Mrs. Morella. You mentioned the standard 43? I thought--EPA 
is 43----
    Colonel Fiala. The composite sample background that says 
OK, we need to go back and do some more work is 18 parts per 
million.
    Mrs. Morella. 18. I see. But EPA is 43.
    Colonel Fiala. EPA's figure for doing some remediation is 
43 parts per million. So we're taking a very conservative 
approach on that.
    Mrs. Morella. Right. You are. Probably with great validity.
    Ms. Norton.
    Ms. Norton. Thank you, Madam Chair.
    Colonel Fiala. Madam, let me correct that. It's not 18. 
It's 13 in the grid sampling, not 18; so we've even gone down 
further.
    Ms. Norton. Dr. Ladner, is it not the case that the 
University has just had approved an ambitious expansion plan 
for the campus?
    Mr. Ladner. I wouldn't call it ambitious actually, but we 
have had a 10-year plan approved----
    Ms. Norton. Is it not limited to almost 1 million square 
feet?
    Mr. Ladner. No, 400,000.
    Ms. Norton. Over the next 10 years?
    Mr. Ladner. 10 years.
    Ms. Norton. That will, of course, involve excavation of 
soil and the like in the area?
    Mr. Ladner. Right.
    Ms. Norton. Would you not believe that a complete 
environmental assessment should be made before we kick up more 
dirt on your campus or in the Spring Valley area and before any 
construction begins?
    Mr. Ladner. Two things are relevant there, Delegate Norton. 
One is we have had a letter from the D.C. Health Department 
indicating that this environmental approach that you speak of 
should not be cause for holding up the approval of the campus 
plan. And that was on record as part of the proceedings in the 
campus plan, deliberations by the Zoning Commission.
    The second thing is we absolutely agree that before any 
site--we would do this anyhow. In fact in 1986, this is how we 
discovered and why the Army came in and so forth. For each 
site, we intend to do just that. Third----
    Ms. Norton. Excuse me. What is it you intend to do for each 
site?
    Mr. Ladner. To have the testing for the soil done 
completely for the site. And third----
    Ms. Norton. To make sure there is no chemical----
    Mr. Ladner. Exactly.
    Ms. Norton. What about the very process of excavating soil 
and the rest? Are you going to take precautions to see to it 
that it is not airborne and otherwise become--what precautions 
will you take?
    Mr. Ladner. I am not an expert. We will take all the 
precautions that we are told to follow by the experts.
    Ms. Norton. That's very important, Dr. Ladner. If all you 
do is to hire your usual contractor and say go to it, we're 
going to have more of what we've already had in the Spring 
Valley area. It does seem to me that very specialized work has 
to be done for any construction in that area.
    Mr. Ladner. I didn't mean by experts, the construction 
company. I meant the EPA, I meant consultants that we ourselves 
hired. We've hired toxicologists, environmental experts, etc. 
We intend to continue to employ those people as experts onsite.
    Ms. Norton. Thank you very. That certainly is reassuring, 
and I think it's going to be very important for you to work 
with the community in this regard as well. You have a 
controversial plan of expansion going on, Dr. Ladner, and we 
are very pleased to have universities in our area, but you have 
to understand that already most of the land in this town is 
taken from the taxpayers by a combination mostly of the Federal 
Government and private universities. They claim to give back a 
lot to the community. Almost everybody they employ lives in 
Maryland and Virginia, and so if you--if we are a little 
skeptical about expansion plans, especially in an area which 
has had this kind of environmental problem, you will have to 
forgive us. But you are housed in a community that is among our 
highest-income communities, that contributes disproportionately 
to a government which cannot charge commuter taxes, that people 
come and use all the services. So that we are very--we embrace 
this community, we hug this community.
    They pay the taxes that American University and Georgetown, 
my own University where I still teach, and AU and Howard do not 
pay. So I'm going to ask you if you are--I know you have the 
sign-off of our city and the approval of your expansion plan, 
but I am going to ask you to work very closely with this 
community, which has lived through a fiscal crisis with us, is 
a community of great concern to us, a community where the 
property values are continuing to go up, and a community, 
frankly, that we live off disproportionately.
    I'm going to ask you, since you don't live off us, since 
you do not contribute to the Government of the District of 
Columbia, since the Government of the District of Columbia does 
not even have what New Haven and Boston have, which is a fair--
a plan whereby universities at least contribute what they can 
to the city and its upkeep, something that the District of 
Columbia ought to do forthwith. At the very least, I'm going to 
ask you to work far more closely with the community as you 
embark on this construction.
    You have a very angry community up there. I think they are 
as angry with AU as they are with the Army Corps of Engineers, 
frankly, and I think there is repair work that needs to be done 
with that community, including working very closely with them, 
listening to them about your expansion plans, being able to 
compromise with them with respect to your expansion plans. 
Every inch that you expand takes revenue from the District of 
Columbia that it does not have.
    So I'm going to ask that of you publicly, in the name of a 
community that we rely on and that I think has lived through 
terrible times, with very little coming back to it, but 
nevertheless has been steadfast. Can I get a commitment from 
you to work more closely with the community?
    Mr. Ladner. Delegate Norton, we're not talking about 
expanding the property that we do not already own, so there is 
no property taken off the tax rolls. We're talking about 
developing buildings on our campus, A.
    B, last year we contributed more than $400 million to the 
Washington, DC, economy.
    C, there were----
    Ms. Norton. What does that mean? I'm going to stop you 
there, Mr. Ladner. In what way?
    Mr. Ladner. In terms of our taxes, in terms of payments for 
services, a whole raft of things, and I would be happy to share 
the----
    Ms. Norton. I wish you would submit in detail to this 
committee----
    Mr. Ladner. Be happy to.
    Ms. Norton [continuing]. Your payment of taxes.
    Mr. Ladner. Be happy to do that.
    Ms. Norton. To the Army, I have been very concerned about a 
distinction that you have relied on throughout this hearing 
between munitions, on the one hand, and chemical contamination 
on the other. Everybody knew that we were talking about World 
War I munitions. Is it your testimony that you expected that 
there would be World War I munition that would not leak out 
some contamination into the soil and that therefore all you've 
got to do is look at the weapon itself, and that shouldn't lead 
you to look for chemical residue that might come from munitions 
made as long ago as World War I?
    Colonel Fiala. Ma'am, I'll respond to that, to your 
question. When the Corps of Engineers Baltimore District was 
asked and given the mission to come into the community for the 
first time in February 1993, our focus was on burial pits and 
trenches and looking for chemical munitions in the components 
lab equipment, those kinds of things, in the manufacture of the 
chemical weapons and the testing process that was done at AU. 
That was the focus.
    We developed a plan where we went through and identified 
areas we call points of interest. We went back and did some 
sampling and did some excavations in those areas, and that 
effort resulted in us finding, in addition to the rounds that 
were found in phase 1 of this operation, about 144 munitions.
    At the same time, we took samples of the chemical 
components directly related to the manufacture of lewisite and 
mustard gas. We did not look for arsenic because we were 
focused on finding buried pits and trenches and munitions, and 
we took these samples in conjunction with that, and that was 
the process between 1993 and 1995.
    Ms. Norton. And that may have been the source of much of 
the problem here. My concern here is not that the Army buried 
this in 1921 or whatever, but that by 1986, for example, it 
would have--it seems to me to be impossible to believe that 
once there were munitions, there would not also be chemicals 
including perhaps arsenic. Heaven knows what they are, but 
munitions aren't so air-tight that they would remain munitions.
    So, one, you know you're looking for munitions. It seems to 
me that it would follow that you're looking for chemicals that 
leaked from munitions. And yet Mr. Reardon's testimony, your 
testimony seems to be that the search was for munitions, and if 
that's what we had uncovered, we didn't have any obligation to 
look beyond the compact thing called a munition to see whether 
those munitions had begun to seep out into the soil or 
elsewhere.
    Colonel Fiala. Ma'am, we did take soil samples around the 
pits that we found munitions, and again we were looking for the 
components that are related, the chemical materials that were 
related to munitions and the chemicals, the chemical properties 
of those.
    We did not take arsenic. The EPA took on the arsenic level 
testing, and again one of the reasons for that is because, 
again, I'll go back to the science that we're dealing with 
here. We were looking for munitions and chemical weapons. 
Arsenic is a naturally occurring--I know we've heard testimony 
before--naturally occurring in the environment, heavy metal. It 
is also used extensively in pesticides. It's used extensively 
as a treatment of a wood preservative.
    So our focus was to find the science to look for munitions 
buried and the chemical components to those, and we were 
concerned with the leaching out of that material. We took 
samples in those points of interest and found nothing elevated.
    Ms. Norton. Are you concerned at the criticism about the 
way you dug initially, and the incompetence that it is alleged 
characterized some of the not digging deep enough, etc?
    Colonel Fiala. Ma'am, I haven't heard any criticism about 
not digging deep enough.
    Ms. Norton. It was in----
    Colonel Fiala. I will tell you that we have been, as we 
have testified before--and it's been common knowledge that we 
made a mistake in one point of interest in our operation 
between 1993 and 1995.
    If you look at the map there, that's 660 acres. We made a 
mistake in locating one point of interest 150 feet from where 
it was. That mistake was based on an initial photographic 
interpretation that was then further updated during the course 
of the operation. It did not get back to the operators on the 
ground.
    We made that mistake in 1993 and 1995. The D.C. government 
Health Department and our review after they gave us a letter in 
late 1996, early 1997. We conducted a review of our operation 
and we found that we had made this mistake of 150 feet. When we 
went back in----
    Ms. Norton. How did the District of Columbia find that out?
    Colonel Fiala. They didn't. They gave us a list of 
concerns, and I think the number was 37 in the letter. And 
those were valid, and we applaud their Herculean effort in the 
further refinement and research of the documents.
    We then in the Baltimore District went back and did a 
review and published a revised report in late 1997 and began 
operations in 1998. We went back to this point of interest, 24, 
which is in the backyard of the Korean ambassador's property. 
As we went into that hole, we found extensive munitions, and we 
started taking soil samples with EPA, and we found elevated 
levels of arsenic contamination, as Mr. Voltaggio talked about 
before.
    Then we started expanding the circle, and that is the 
process. And we haven't wavered from that process since the 
Baltimore Corps of Engineers has been involved since 1993. You 
find some contamination in a hole, whether it's weapons 
material, you take samples, and you begin to build out from 
that point of interest, until you find clean soil. That's been 
the process, and it continues to be the process today.
    Ms. Norton. One further question. The District testified 
that its grant had been cut so that it can't do its own--as 
much of its own soil samples as possible. I need to know why 
that occurs, and I need to be assured that there will be no 
budgetary problems with respect to the total cleanup. Can I get 
that assurance?
    Mr. Fatz. Yes, ma'am. If you're referring to Dr. Gordon's 
statement that the $80,000 was cut----
    Ms. Norton. I am.
    Mr. Fatz. I will personally get with Dr. Gordon and explain 
why that money was withdrawn. It wasn't obligated, and I will 
get with Dr. Gordon and tell him how he can get more money. 
There's a process for that and I will explain that.
    Ms. Norton. Thank you.
    Colonel Fiala. Ma'am, I would like to point out that this 
is the first time we heard requested that D.C. government would 
like to conduct separate soil samples, so we will support that 
effort.
    Ms. Norton. I very much appreciate that. I appreciate that 
has come out and that you are willing to work with the 
District. You believe you are adequately funded to do the 
complete cleanup?
    Colonel Fiala. I'm the operator on the ground, ma'am. I'm 
adequately funded for my current operations. And let me point 
out when we worked the extensive and comprehensive sampling 
plan starting in February, and started work in that with 
community outreach and getting their opinions, and working with 
the EPA and the Department of Health, the Department of the 
Army stood up and gave me additional money to conduct that 
operation.
    Ms. Norton. Thank you very much, and thank you, Madam 
Chair.
    Mrs. Morella. Thank you. Let me ask you, perhaps it's 
Colonel Fiala or maybe Mr. Fatz who would respond. What has the 
Army spent so far? And then, what is the cost of sampling each 
of the 1,200 properties? And then I'm curious also about how 
much is budgeted for sampling and remediation and how much has 
already been spent on sampling, including the restoration, and 
how much has been spent on remediation?
    Mr. Fatz. OK. If we can do this as a tag team, I'll answer 
the overall. To date, we have spent $50 million at Spring 
Valley and that includes $10 million this year. We went into 
the fiscal year 2001, and it was budgeted for $3 million, and 
we had to find $7 million in our program to bring it up to the 
$10 million that the Baltimore District required to do the 
sampling after the arsenic find.
    Mrs. Morella. What's the breakdown----
    Colonel Fiala. With regards to your question about the 
sampling, our estimate right now, it's going to cost between $3 
million to $5 million, and that's going to depend on how often 
and to what level we need to go back and do further sampling or 
refine it. And that will depend on what kind of initial results 
we get back in our initial sampling.
    Mrs. Morella. Could you break it down on each of the 
properties, approximately what the cost is? I think there's----
    Colonel Fiala. And we'd--I'd like to submit that for the 
record.
    Mrs. Morella. You certainly may. You may submit that to the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.194
    
    [GRAPHIC] [TIFF OMITTED] T7354.195
    
    Mrs. Morella. And tell me about your technologies. What 
technology did you use in 1986 and in 1993 to detect the burial 
sites? And then, what are you doing today?
    Colonel Fiala. Yes, ma'am. When we started the geophysical 
surveys in 1993, again, we started in 1993, not in 1986. We 
used an instrument that's referred to as the EM-31. It is an 
instrument that was--the right instrument to look for buried 
munitions and mass locations of buried munitions and the metal 
signature that they provide. And there's been criticism that we 
aren't using the right piece of equipment. In our role of 
looking for these things, our experts in this business of 
ordnance discovery are convinced that we are.
    There's been some minor technical improvements to the EM-
31. There's been further improvements in GIS; in other words, 
where you are on the ground, refinement that allows us to 
improve the physics of how you determine whether or not you 
need to dig or not. In addition to that--at the request of the 
D.C. Health Department, we are going to conduct some testing 
with some other more modern equipment to determine whether or 
not we can use those, and that testing is going to be conducted 
in late August, going into September. Based on those results, 
we will go back to areas where we jointly have some concerns--
and when I say jointly, that's us, the EPA and the Health 
Department--and use that technology.
    Mrs. Morella. Colonel Fiala, I really don't understand EM-
31 or GIS, GIS, but I hope that what you are saying to me is 
that you have the best available, latest technology that you 
are employing.
    Colonel Fiala. You've summarized it better than I have, 
ma'am.
    Mrs. Morella. Just one final question, and I don't mean to 
ignore everybody. That's really been the difficulty because 
we'd like to spend time with each one of you and go through a 
whole litany of questions, but time doesn't truly allow it. 
Maybe for Mr. Reardon, General Reardon, is a criminal 
investigation being conducted by your agency or other agencies 
of the Federal Government regarding the Spring Valley project?
    Mr. Reardon. Ma'am, Army audit would not be doing a 
criminal investigation, wouldn't be our area, and I know of no 
criminal investigation being done by anyone in the Army over 
Spring Valley.
    Mrs. Morella. Is there anyone on the panel who feels 
qualified to respond to that? We had heard there might be.
    Colonel Fiala. Ma'am, I'll respond to that because I have 
employees that have been interviewed. It's my understanding 
there is an investigation being conducted by the EPA, and in 
their investigation they're interviewing employees and other 
Federal officials that were involved in this operation in 1993 
to 1995. So they have been interviewed, and I know this because 
they have interviewed a couple of our people.
    Mrs. Morella. Do you have any idea of the scope of the 
investigation?
    Colonel Fiala. No, ma'am. I just know that they come in and 
interview.
    Mrs. Morella. This is a question we'll direct to the EPA in 
writing.
    I'm going to defer to the ranking member. I have no further 
questions to ask you, but I would like to submit questions for 
the record for you to answer as expeditiously as possible, and 
I thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mrs. Morella. I have only a couple 
of more things today.
    One, I want to make sure that I understood President Ladner 
correctly. I certainly understand that his--that the expansion 
that's been approved is expansion on the AU campus. Do I 
understand you to say that you do not intend to acquire 
properties on the south side of what you now own?
    Mr. Ladner. No, I would not say that. We have purchased a 
couple of buildings in the last 5 to 6 years, and we hold open 
that option as any other legal entity has in the city.
    Ms. Norton. So your response to me was not entirely candid 
then. You're saying as of now you intend to expand on the AU 
campus, but you add that you still purchase properties outside 
of your campus, and therefore you might expand beyond the 
campus confines.
    Mr. Ladner. Congresswoman Norton, I was responding to a 
discussion about the campus plan as you laid it out, and so I 
intended to be doing it in that context. I'm glad you asked 
this further question because it's my understanding you were 
talking about the campus plan.
    Ms. Norton. And the campus plan does then include not only 
the campus, but any properties you may acquire?
    Mr. Ladner. No, it does not.
    Ms. Norton. The campus plans means you will be expanding 
only on property you own now?
    Mr. Ladner. That's right.
    Ms. Norton. That's important.
    Madam Chair, I want to ask that included in the record be a 
list of addresses in Spring Valley and diseases which people--
and the diseases that people at these addresses have acquired. 
I have no idea----
    Mrs. Morella. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T7354.196
    
    [GRAPHIC] [TIFF OMITTED] T7354.197
    
    [GRAPHIC] [TIFF OMITTED] T7354.198
    
    Ms. Norton. Thank you. I have no idea whether these 
residents--there's a pattern here sometimes on specific 
blocks--would have acquired these diseases in the first place, 
and the last thing we ought do is draw the conclusion that 
because a set of people have cancers, for example, and other 
diseases that there's a cause-effect relationship established. 
I ask for their inclusion in the record for one reason only, 
and that is to fortify and reinforce what from me is a major 
contribution we can make, and that is to get the earliest 
health studies so that people can take whatever precautions 
they need to take to avoid health risks, and so that the 
Federal Government can do whatever it can to prevent health 
risks to this community.
    Thank you very much, Madam Chair.
    Mrs. Morella. Again, I want to thank you for spending the 
day with us and for the information that you have given this 
subcommittee. As you probably have gathered, when we pull all 
our material together and look at what further needs to be 
done, we will be working with you, and we will be moving ahead 
beyond this. Thank you all very much.
    The hearing is now adjourned, and I want to thank our staff 
for the work that they have done: Russell Smith, Heea Fales, 
Rob White, Matt Batt, Howard Denis and John.
    [Whereupon, at 3:07 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Thomas M. Davis and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] T7354.199

[GRAPHIC] [TIFF OMITTED] T7354.200

[GRAPHIC] [TIFF OMITTED] T7354.201

[GRAPHIC] [TIFF OMITTED] T7354.232

[GRAPHIC] [TIFF OMITTED] T7354.233

[GRAPHIC] [TIFF OMITTED] T7354.234

[GRAPHIC] [TIFF OMITTED] T7354.235

[GRAPHIC] [TIFF OMITTED] T7354.236

[GRAPHIC] [TIFF OMITTED] T7354.237

[GRAPHIC] [TIFF OMITTED] T7354.238

[GRAPHIC] [TIFF OMITTED] T7354.239

[GRAPHIC] [TIFF OMITTED] T7354.240

[GRAPHIC] [TIFF OMITTED] T7354.241

[GRAPHIC] [TIFF OMITTED] T7354.242

[GRAPHIC] [TIFF OMITTED] T7354.243

[GRAPHIC] [TIFF OMITTED] T7354.244

[GRAPHIC] [TIFF OMITTED] T7354.245

[GRAPHIC] [TIFF OMITTED] T7354.246

[GRAPHIC] [TIFF OMITTED] T7354.247

[GRAPHIC] [TIFF OMITTED] T7354.248

[GRAPHIC] [TIFF OMITTED] T7354.249

[GRAPHIC] [TIFF OMITTED] T7354.250

[GRAPHIC] [TIFF OMITTED] T7354.251

[GRAPHIC] [TIFF OMITTED] T7354.252

[GRAPHIC] [TIFF OMITTED] T7354.253

[GRAPHIC] [TIFF OMITTED] T7354.254

[GRAPHIC] [TIFF OMITTED] T7354.255

[GRAPHIC] [TIFF OMITTED] T7354.256

[GRAPHIC] [TIFF OMITTED] T7354.257

[GRAPHIC] [TIFF OMITTED] T7354.258

[GRAPHIC] [TIFF OMITTED] T7354.259

                                   - 

</pre></body></html>
